 Criminal
 I nvestigative
 Policy &
 Oversight
                      Evaluation of
     The Criminal Investigative Environment In Which
    The Defense Enrollment Eligibility Reporting System
                         Operates
Report Number CIPO2000S001                       January 7, 2000



              Office of the Inspector General
                  Department of Defense
                         Additional Information and Copies
This report was prepared by the Oversight Directorate, Office of the Deputy Assistant Inspector General for
Criminal Investigative Policy and Oversight, Office of the Inspector General, Department of Defense. If you have
questions on this evaluation or want additional copies of the report, contact Dr. Charles P. McDowell, Program
Director, at (703) 604-8769 (DSN 664-8769)



Acronyms Used in This Report

AFOSI                  Air Force Office of Special Investigations
ADS                    Ambulatory Data System
ASD(HA)                Assistant Secretary of Defense (Health Affairs)
AUSA                   Assistant United States Attorney
CDIS                   CHAMPUS Detail Information System
CHAMPUS                Civilian Health and Medical Program of the Uniformed Services
CHCS                   Composite Health Care System
DAS                    Defense Audit Service
DCIO                   Defense Criminal Investigative Organization
DCIS                   Defense Criminal Investigative Service
DEERS                  Defense Enrollment Eligibility Reporting System
DoD                    Department of Defense
DoDD                   Department of Defense Directive
DoDI                   Department of Defense Instruction
DSO                    DEERS Support Office
DMDC                   Defense Manpower Data Center
GAO                    U.S. General Accounting Office
IG, DoD                Inspector General, Department of Defense
MCIO                   Military Criminal Investigative Organization
MTF                    Medical Treatment Facility
NCIS                   Naval Criminal Investigative Service
OASD(HA)               Office of the Assistant Secretary of Defense (Health Affairs)
OUSD(P&R)              Office of the Under Secretary of Defense (Personnel and Readiness)
RAPIDS                 Real-Time Automated Personnel Identification System
SJA                    Staff Judge Advocate
TMA                    TRICARE Management Activity
USACIDC                U. S. Army Criminal Investigation Command
USD(P&R)               Under Secretary of Defense (Personnel and Readiness)
 Criminal
 I nvestigative
 Policy &
 Oversight
                      Evaluation of
     The Criminal Investigative Environment In Which
    The Defense Enrollment Eligibility Reporting System
                         Operates
Report Number CIPO2000S001                       January 7, 2000



              Office of the Inspector General
                  Department of Defense
                         Additional Information and Copies
This report was prepared by the Oversight Directorate, Office of the Deputy Assistant Inspector General for
Criminal Investigative Policy and Oversight, Office of the Inspector General, Department of Defense. If you have
questions on this evaluation or want additional copies of the report, contact Dr. Charles P. McDowell, Program
Director, at (703) 604-8769 (DSN 664-8769)



Acronyms Used in This Report

AFOSI                  Air Force Office of Special Investigations
ADS                    Ambulatory Data System
ASD(HA)                Assistant Secretary of Defense (Health Affairs)
AUSA                   Assistant United States Attorney
CDIS                   CHAMPUS Detail Information System
CHAMPUS                Civilian Health and Medical Program of the Uniformed Services
CHCS                   Composite Health Care System
DAS                    Defense Audit Service
DCIO                   Defense Criminal Investigative Organization
DCIS                   Defense Criminal Investigative Service
DEERS                  Defense Enrollment Eligibility Reporting System
DoD                    Department of Defense
DoDD                   Department of Defense Directive
DoDI                   Department of Defense Instruction
DSO                    DEERS Support Office
DMDC                   Defense Manpower Data Center
GAO                    U.S. General Accounting Office
IG, DoD                Inspector General, Department of Defense
MCIO                   Military Criminal Investigative Organization
MTF                    Medical Treatment Facility
NCIS                   Naval Criminal Investigative Service
OASD(HA)               Office of the Assistant Secretary of Defense (Health Affairs)
OUSD(P&R)              Office of the Under Secretary of Defense (Personnel and Readiness)
RAPIDS                 Real-Time Automated Personnel Identification System
SJA                    Staff Judge Advocate
TMA                    TRICARE Management Activity
USACIDC                U. S. Army Criminal Investigation Command
USD(P&R)               Under Secretary of Defense (Personnel and Readiness)
  EVALUATION OF THE INVESTIGATIVE ENVIRONMENT IN
    WHICH THE DEFENSE ENROLLMENT ELIGIBILITY
           REPORTING SYSTEM OPERATES
                                           TABLE OF CONTENTS
EXECUTIVE SUMMARY ........................................................................................................ i
PART I - INTRODUCTION .................................................................................................... 1
      Background ........................................................................................................................1
               Military Health Care as a Target for Fraud ................................................. 1
      Military Health Care System .............................................................................................2
      Defense Enrollment Eligibility Reporting System ...........................................................2
               Enrollment and Eligibility Systems............................................................. 3
               Identification Cards ..................................................................................... 4
               Enrollment Procedures and Eligibility Requirements ................................. 4
                        Sponsors .......................................................................................... 4
                        Dependents ...................................................................................... 5
      Statutory and Regulatory Authority ..................................................................................6
      Purpose of the Evaluation..................................................................................................6
      Significance of the Evaluation...........................................................................................6
      Scope of the Evaluation .....................................................................................................7
      Prior Reviews .....................................................................................................................7
      Methodology ......................................................................................................................7
               Sources of Data ........................................................................................... 8
               Procedures for Collecting Data ................................................................... 8
               Analysis of Investigative Data..................................................................... 9
PART II - RESULTS OF EVALUATION AND RECOMMENDATIONS
      A. Current Procedures Allow Ineligible Individuals to Retain Identification
           Cards That May Permit Unauthorized Access to Military Health Care for
           Lengthy Periods .........................................................................................................10
               Introduction ............................................................................................... 10
               Issuing Identification Cards....................................................................... 11
               Reporting Status Changes and Surrendering Identification Cards ............ 12
               Recommendation, Management Comments, and Our Response .............. 13
      B. Medical Treatment Facility Efforts to Verify Eligibility and Confiscate
           Identification Cards From Ineligible Individuals Are Not Fully Effective.............14
               Introduction ............................................................................................... 14
               Military Treatment Facility Efforts to Verify Eligibility........................... 15
               Military Treatment Facility Efforts to Confiscate Identification Cards
               From Ineligibles ........................................................................................ 17
               Administrative Recoupment Actions ........................................................ 18
Table of Contents



                Management Controls ............................................................................... 18
                Recommendations, Management Comments, and Our Response............. 19
         C. TRICARE Does Not Have a Documented System for Developing, Referring,
            or Tracking Potential Ineligibility Fraud Offenses That Warrant Criminal
            Investigation...............................................................................................................21
                Developing, Referring and Tracking Investigative Cases ......................... 21
                DSO Referrals to TMA ............................................................................. 22
                DSO has Implemented a Partial Solution.................................................. 23
                Contract Providers and Payment Centers .................................................. 24
                Recommendation, Management Comments, and Our Response .............. 24
         D. Most Criminal Investigations Involving Ineligibility Are Closed Without
            Criminal, Civil, or Administrative Remedy, and the Remainder Do Not
            Recover Estimated Government Losses...................................................................29
                Introduction ............................................................................................... 29
                DCIO Investigations Involving Ineligibility for Medical Care ................. 29
                Database Checks That Could Assist Investigations .................................. 30
                MCIO Access to Databases ....................................................................... 32
                Recommendation, Management Comments, and Our Response .............. 32

APPENDIX A          -     STATUTORY AND REGULATORY AUTHORITIES
APPENDIX B          -     RELEVANT PRIOR REPORTS AND FINDINGS
APPENDIX C          -     SITES VISITED DURING THE EVALUATION
APPENDIX D          -     DCIO CRIMINAL INVESTIGATIONS INVOLVING INDIVIDUALS
                          INELIGIBLE FOR MILITARY HEALTH CARE
APPENDIX E -              MANAGEMENT COMMENTS
APPENDIX F -              REPORT DISTRIBUTION
                                                                                                     Executive Summary



     EVALUATION OF THE INVESTIGATIVE ENVIRONMENT IN
       WHICH THE DEFENSE ENROLLMENT ELIGIBILITY
              REPORTING SYSTEM OPERATES
                                       EXECUTIVE SUMMARY


    INTRODUCTION

            We began this evaluation in response to correspondence from the Assistant
    Secretary of Defense (Health Affairs) (ASD(HA)). The ASD(HA) was concerned that the
    Military Criminal Investigative Organizations (MCIOs)1 were not investigating cases in
    which individuals used false documentation to obtain identification cards needed to
    access military benefits and privileges. In performing preliminary research on the
    ASD(HA) concerns, however, we determined that the MCIOs generally were not notified
    when an ineligible individual was suspected of obtaining or using an identification card.
    Our overall objective for the evaluation, therefore, was expanded to encompass whether
    the Department of Defense (DoD) is effective in preventing, detecting, and investigating
    instances in which ineligible individuals obtain identification cards, and the benefits they
    receive from using these cards. We announced this evaluation on March 13, 1997, and
    conducted our primary fieldwork between July 30, 1997, and February 28, 1998. We
    conducted additional fieldwork in January 1999. On June 10, 1999, we issued this report
    in draft form for management comments.


    MANAGEMENT COMMENTS

            On September 13, 1999, we received comments from the Office of the Under
    Secretary of Defense (Personnel and Readiness) (OUSD(P&R)). OUSD(P&R) concurred
    with some of our recommendations, but nonconcurred with others. OUSD(P&R) also
    stated concerns about completeness and accuracy in some sections of the draft report.
    OUSD(P&R)’s comments are reproduced as Appendix E.

            Generally, the OUSD(P&R) nonconcurrences with individual recommendations
    (B.2., C.1., and D.1.) were based largely on one of the following positions:


1
    The MCIOs are the U.S. Army Criminal Investigation Command (USACIDC), the Naval Criminal Investigative
    Service (NCIS), and the Air Force Office of Special Investigations (AFOSI). The MCIOs, together with the Defense
    Criminal Investigative Service (DCIS), the IG, DoD, criminal investigative arm, collectively are known as the Defense
    Criminal Investigative Organizations (DCIOs).




                                                                                                                            i
Executive Summary



           • the recommendation should be directed to the Uniformed Services, since
the Uniformed Services are responsible for determining eligibility for military health care
and for terminating eligibility when an individual no longer qualifies for treatment; and
           • under the terms of a Memorandum of Understanding, the Defense
Criminal Investigative Service, not the Military Criminal Investigative Organizations, has
lead agency responsibility for fraud involving the TRICARE Program.

        The OUSD(P&R) comments are addressed in detail in this final report. For the
reasons set forth in this report, we have not accepted the OUSD(P&R) bases for
nonconcurring and have reaffirmed our Recommendations B.2., C.1., and D.1. We have,
however, modified Recommendation D.1. to include Operation Mongoose databases
among those the Military Criminal Investigative Organizations should check when
investigating beneficiary medical fraud. We have also modified the final report where
appropriate to address certain OUSD(P&R) concerns about completeness and accuracy in
the draft report.


EVALUATION RESULTS

        We were unable to determine, beyond the cases actually investigated by the
MCIOs, the extent to which the DoD has a problem with ineligible individuals using the
military health care system. As a result, we were also unable to determine the
unauthorized costs that DoD incurs due to ineligible individuals using the military health
care system. These determinations were not possible because the Office of the Assistant
Secretary of Defense (Health Affairs) (OASD(HA)) does not maintain records on:
            • suspected ineligible individuals who seek military health care;
            • suspected ineligible individuals who are denied military health care;
            • suspected ineligible individuals who are identified as actually ineligible
after they obtain military health care;
            • administrative actions undertaken to address ineligibility or unauthorized
health care costs;
            • suspected ineligibility cases referred for criminal investigation; or
            • outcomes of criminal investigative case referrals.

        This situation exemplifies an overall condition in which the DoD does not have an
effective program to prevent, detect, or investigate ineligibility health care fraud.

        Furthermore, when potential ineligibility fraud cases are investigated, the
investigations generally do not result in criminal, civil, or administrative remedies.
During 1995 through 1997, DoD criminal investigative organizations investigated




ii
                                                                                                     Executive Summary



    81 cases that involved potentially ineligible individuals receiving military health care.2
    At the time of our primary fieldwork, 74 of these investigations had been completed, and
    the cases had been closed. Forty nine (66 percent) of the closed cases were declined for
    prosecution and/or were closed without remedy, generally because prosecutors
    determined the estimated Government losses were too small to warrant prosecution, or
    because the investigations did not establish criminal intent. Although the remaining
    investigations (34 percent) produced an array of results, the monetary recoveries
    amounted to only about 5 percent of the estimated Government losses.

            Overall, we identified the following conditions that warrant management attention
    and corrective action:
                • Current procedures allow ineligible individuals to retain identification
    cards that may permit unauthorized access to military health care for lengthy periods.
                • Medical treatment facility efforts to verify eligibility and confiscate
    identification cards from ineligible individuals are not fully effective.
                • The TRICARE Management Activity does not have a documented system
    for developing, referring, or tracking potential ineligibility fraud offenses that warrant
    criminal investigation.
                • Because most criminal investigations do not result in criminal, civil, or
    administrative remedies and those that do only recover a minor portion of the estimated
    Government loss, OASD(HA) must aggressively pursue administrative recoupment
    actions to address potential ineligibility medical fraud. If not, most unauthorized cost that
    DoD incurs from ineligibility medical fraud will not be recovered.


    SUMMARY OF RECOMMENDATIONS

            We recommend the following corrective or improvement actions:
                • The Under Secretary of Defense (Personnel and Readiness), through the
    Joint Uniformed Services Personnel Advisory Committee, establish time limits for
    sponsors to (1) report a change in eligibility status for their dependents, and (2) surrender
    a dependent’s identification card when the dependent becomes ineligible for military
    benefits and privileges, and adopt these time limits in appropriate policy.
                • The ASD(HA) direct medical treatment facility commanders to comply
    with existing policy that requires:
                        § 100 percent eligibility checks using the Defense Enrollment
    Eligibility Reporting System prior to treating military personnel or their dependents;


2
    Individual OASD(HA) medical facilities or medical personnel were the sources of allegations for 27 (33 percent) of
    these investigations (See Appendix D). These cases, however, did not constitute investigative case referrals where
    OASD(HA) had identified actual or potential ineligibility and referred the matter for criminal investigation.




                                                                                                                         iii
Executive Summary



                    § confiscating identification cards from ineligible individuals who
seek military health care and forwarding those cards to local authorities; and
                    § initiating administrative recoupment actions for cost incurred when
suspected ineligible individuals obtain unauthorized military medical benefits.
            • The ASD(HA) (1) require the TRICARE Management Activity to
implement an aggressive management control plan with fraud indicators that helps detect
ineligible individuals who apply for and receive medical care through TRICARE, and
(2) consider making this plan part of the TRICARE Management Activity’s Annual
Statement of Assurance submitted in accordance with DoD Directive 5010.38,
“Management Control Program,” August 26, 1996.
            • The Director, TRICARE Management Activity, with input from the
MCIOs, implement a system for developing, referring, and tracking cases that involve
military health care given to suspected ineligible recipients. This system should include
procedures and timelines for pursuing administrative remedies in cases determined not to
warrant criminal investigation and prosecution. It should also include procedures and
timelines for pursuing administrative remedies in cases referred for criminal
investigation, but ultimately not prosecuted, unless a determination is made that an
administrative recovery is not appropriate.
            • The Director, TRICARE Management Activity, arrange for the Military
Criminal Investigative Organizations to receive access to and system training on the
CHAMPUS Detail Information System to aid their military health care investigations.
            • The MCIOs implement procedures that ensure their criminal investigators
who conduct military health care investigations check all relevant databases in
determining the breadth of criminal conduct involved and the potential overall loss to the
Department of Defense.




iv
                                                                                                       Part I - Introduction



     EVALUATION OF THE INVESTIGATIVE ENVIRONMENT IN
       WHICH THE DEFENSE ENROLLMENT ELIGIBILITY
              REPORTING SYSTEM OPERATES
                                      PART I - INTRODUCTION


    BACKGROUND

           One of the most significant benefits of military service is the broad-based, low-
    cost health care provided to active duty personnel, retirees, and their families. Although
    providing health care to military member families (dependents) dates to the American
    Revolution, the concept was not formalized until 1884, when Congress directed that
    “… medical officers of the Army and contract surgeons shall whenever possible attend
    the families of the officers and soldiers free of charge.” Over the ensuing years, the scope
    of medical care provided to military members and their dependents continued to increase.
    Currently, health care treatments that would be prohibitively expensive if paid out of
    pocket, including organ transplants and hospice care, are covered by military health care
    services. In Fiscal Year (FY) 1997, the military health care system served 8.2 million
    people and cost $15.7 billion, an amount equal to 6.2 percent of the Defense budget.

              Military Health Care as a Target for Fraud

            The military health care system has continued to be an attractive target for fraud.
    Because access to low- or no-cost medical care results in substantial monetary savings to
    patrons, use by unauthorized individuals has been a continuing DoD problem that has
    been reported in numerous audits and inspections. However, based on current
    OASD(HA) recordkeeping, it is not possible to estimate how many ineligible individuals
    actually receive military health care, or the resulting cost to DoD.3


    MILITARY HEALTH CARE SYSTEM

           DoD has continued to search for ways to improve access to quality medical care
    while controlling costs. In the late 1980s, DoD conducted several demonstration projects

3
    For medical fraud generally, the United States Chamber of Commerce estimates that, on a national basis, up to
    20 percent of all health care claims are fraudulent. According to these estimates, health-care providers commit
    65 percent to 75 percent of the total fraud, beneficiaries commit 15 percent to 35 percent, and insurer employees
    commit 10 percent.




                                                                                                                          1
    Part I - Introduction



    to evaluate alternative health care delivery approaches. Based on these projects, and in
    response to requirements in the FY 1994 Appropriations Act, DoD adopted TRICARE as
    its managed health-care program.4 TRICARE was designed to:
                • ensure high-quality, consistent medical care while preserving choices as to
    the medical provider used;
                • improve access to health care; and
                • contain costs.

             At the time of our fieldwork, TRICARE was being implemented nationally.

            The Under Secretary of Defense (Personnel and Readiness) (USD(P&R)), through
    the ASD(HA), is responsible for the TRICARE program. The ASD(HA) has established
    11 health service regions and exercises authority, direction, and control over TRICARE
    and individual medical treatment facilities (MTFs) in these regions. In each region, a
    military health care administrator, supported by a joint-Service staff, is lead agent for
    coordinating all health care services. These regional staffs are responsible for medical
    services provided at 115 hospitals, 471 clinics, and through various private medical
    practitioners who serve TRICARE patients on a contract basis. The TRICARE
    Management Activity (TMA), located in Denver, Colorado, is responsible for program
    oversight. TMA is also responsible for supporting contractors that provide health care to
    military members and their dependents.


    DEFENSE ENROLLMENT ELIGIBILITY REPORTING SYSTEM (DEERS)

            Congressional concern over military health care fraud and abuse, and the need for
    improved military health resources management, led DoD to develop and implement
    DEERS beginning in 1979.5 DEERS is a computer-based, on-line system that contains
    personal, Service-related eligibility and demographic data on all Service members,
    retirees, and their family members. DEERS also contains the information needed to
    determine an individual’s eligibility for military benefits, including health care,
    commissary, and exchange privileges. The DEERS database contains information on
    over 17.2 million people, including 6.5 million military members (sponsors)6 and
    10.7 million dependents. Individuals with records in the database include:


4
    The previous Civilian Health and Medical Program of the Uniformed Services (CHAMPUS) became one optional
    medical approach available under TRICARE. On February 10, 1998, the Office of Civilian Health and Medical
    Program of the Uniformed Services (OCHAMPUS) became the TRICARE Management Activity. For purposes of this
    report, we refer to the current program and organizational elements.
5
    Although created to support the military health system, DEERS has been expanded to include eligibility status for other
    military privileges. The system has also been expanded to interface with other DoD systems and programs.
6
    In the health care community, a military member is generally referred to as the sponsor, since family members would
    not be entitled to services except for the military member’s status.




    2
                                                                                                   Part I - Introduction



                • active duty military personnel;
                • retired military personnel;
                • members of the military reserve components;
                • overseas civil service personnel who support the Armed Forces and their
    dependents;
                • dependents of active, retired and reserve personnel;
                • dependents of military members who died on active duty or after
    retirement;
                • members of the United States Coast Guard; and
                • members of the Commissioned Corps of the United States Public Health
    Service and the National Oceanic and Atmospheric Administration.7

          USD(P&R) is also responsible for DEERS operations. The Defense Manpower
    Data Center (DMDC), which reports to USD(P&R), is systems administrator for DEERS.
    The DEERS policy office is located in Rosslyn, Virginia. The DEERS Support Office
    (DSO) is located in Seaside, California.

             Enrollment and Eligibility Systems

            DEERS is both an Enrollment System and an Eligibility System. The
    Enrollment System combines dependent data with sponsor data. This system generates
    individual records for the Eligibility System and is used to produce management and
    demographic reports. Based on DEERS information, Service members, their eligible
    dependents, and other eligible individuals are given distinctive identification cards.
    These identification cards establish each individual’s eligibility for specific military
    benefits and privileges. The Eligibility System identifies each individual’s eligibility
    status.

             Identification Cards

            Military members and their dependents are issued identification cards to identify
    them as individuals eligible to receive military benefits and privileges. Prior to 1985,
    military identification cards were produced manually, with the issuing official typing the
    required information in the appropriate blocks. This process was both error-prone and

7
    The United States Public Health Service, Department of Health and Human Services, and the National Oceanic and
    Atmospheric Administration, Department of Commerce, each has a commissioned corps with officers who wear
    uniforms similar to Navy uniforms and who receive pay and benefits identical to members of the Armed Forces. These
    two corps are sometimes referred to as “Uniformed Services,” as opposed to “Armed Forces,” because their respective
    missions are typically more scientific and technical than military in nature. Under agreement with the Secretary of
    Defense, Uniformed Service members receive military-related benefits.




                                                                                                                      3
    Part I - Introduction



    time consuming. In 1985, DoD began implementing the Real-Time Automated Personnel
    Identification System (RAPIDS). Because RAPIDS produced computer-generated
    identification cards, it was designed to reduce errors and the time required to prepare the
    cards. In addition, RAPIDS had the added benefit of improving information reliability in
    the DEERS database. At the time of our fieldwork, DMDC was implementing
    RAPIDS 5.0 worldwide.

             Enrollment Procedures and Eligibility Requirements

            Enrollment procedures and eligibility requirements are set forth in DoD
    Instruction (DoDI) 1000.13, “Identification (ID) Cards for Members of the Uniformed
    Services, Their Dependents, and Other Eligible Individuals,” December 5, 1997. A Joint
    Service and Uniformed Services Instruction, “Identification Cards for Members of the
    Uniformed Services, Their Family Members, and Other Eligible Personnel,” July 14,
    1998 (hereafter referred to as the Joint Instruction),8 details procedures and eliminates
    many Service-peculiar requirements. In most instances, this Instruction provides for
    “cross-servicing” military members.9 The enrollment process is summarized below.

            Sponsors. Sponsor information is added to DEERS at the point of entry into
    military service. At the same time, the sponsor is given a DD Form 2, “U.S. Armed
    Forces Identification Card.” Prior to late 1997, active duty and reserve members were
    given different color-coded cards, making it easy to distinguish their status and, thereby,
    their different entitlements to military benefits and privileges. Some reservists and
    congressional representatives, however, perceived the different identification card colors
    as a barrier to achieving a fully integrated force. USD(P&R), therefore, decided that
    active duty and reserve personnel would be issued the same color cards. In announcing
    this decision on December 4, 1997, USD(P&R) emphasized that, while the color of the
    card had changed for reservists, the benefits, entitlements and DEERS update
    requirements remained the same.

            The Military Departments automatically forward updated DEERS information on
    their active duty members, including changes in unit assignment and pay grade, as well as
    information on discharges, dismissals, separations, and retirements. When a military
    member retires, a new color-coded card is issued. Active duty, retiree, and reservist
    identification cards are valid indefinitely.

8
    This instruction was issued by order of the Secretaries of the Army, Navy, Air Force, Transportation (for the Coast
    Guard), Commerce (for the National Oceanic and Atmospheric Administration), and Health and Human Services (for
    the Public Health Service), and the Commandant of the Marine Corps. It is identified as: Air Force Instruction 36-
    3026(I); Army Regulation 600-8-14; BUPERS Instruction 1750.10A, Change 1; Marine Corps Order P5512.11B,
    Change 1; Commandant Instruction M5512.1; Commissioned Corps Personnel Manual 29.2, Instructions 1 and 2.
9
    The cross-servicing concept altered the perception that a Military Department generally served only its own members.
    Cross servicing allows a Military Department to serve any military member without regard to the member’s Military
    Department.




    4
                                                                                                         Part I - Introduction



             Dependents. Sponsors are responsible for enrolling their dependents in DEERS.
     Local military installation personnel accomplish these enrollments using DD Form 1172
     (DD 1172), “Application for Uniformed Services Identification Card DEERS
     Enrollment.” The DD 1172 requires biographic and relational information that must be
     supported with official documentation, such as a marriage license, birth certificate, or
     court order. The sponsor must sign the DD 1172, certifying under penalty of law that the
     information furnished is correct. An issuing or verifying official10 then enters the
     necessary information into DEERS using dedicated computer terminals. Based on the
     DD 1172 information, each eligible dependent is issued an identification card.

             The sponsor is also responsible for (1) notifying DEERS when an eligible
     dependent’s status changes, and (2) returning a dependent’s identification card when the
     dependent is no longer eligible for military benefits and privileges. In addition, the
     sponsor must submit documentation supporting a request for status change. For example,
     when adding a child as a dependent, a sponsor must present a birth certificate, adoption
     document, or court order. Similarly, when deleting a spouse from eligibility following a
     divorce, the sponsor must provide a copy of the divorce decree. Only a verifying or
     issuing official may make an addition to the DEERS database; however, either a
     verifying/issuing official or DSO may delete DEERS data. Although an individual’s
     (sponsor or dependent) status may change in the Eligibility System, the individual is
     never deleted from the Enrollment System. Dependent identification cards must be
     renewed every 4 years or when a change in status occurs.

            In FY 1996, daily activity in DEERS totaled nearly 732,000 actions, including
     over 300,000 sponsor batch updates, nearly 200,000 TRICARE inquiries, about
     125,000 personnel inquiries, and over 20,000 on-line address updates.


     STATUTORY AND REGULATORY AUTHORITY

            The statutory and regulatory authorities covering eligibility for military benefits
     and the penalties for misusing or abusing them are listed in Appendix A.


     PURPOSE OF THE EVALUATION

             On October 23, 1996, the IG, DoD, issued “Revised Interim Guidance for
     Criminal Investigations of Fraud Offenses Jurisdiction.” After reviewing the Revised
     Interim Guidance, on January 10, 1997, the ASD(HA) wrote to the IG, DoD, advising
     that there was “… no evidence that the Military Criminal Investigative Organizations

10
     Under existing policy, an issuing or verifying official is a person who is a military member in an E-4 or higher grade, or
     a civilian employee in a GS-4 or higher grade.




                                                                                                                             5
     Part I - Introduction



     investigate the submission of false documents to obtain dependent identification cards.”
     The ASD(HA) noted that the TRICARE Management Activity was receiving
     approximately 100 letters a month from the DEERS Support Office requesting
     recoupment actions.11 According to ASD(HA), these letters identified individuals whom
     the appropriate Military Department had determined were ineligible for military benefits,
     but whom DEERS incorrectly listed as eligible for military health care. The ASD(HA)
     indicated that the MCIOs were not requesting claims histories or other documentation
     needed to determine whether claims submitted to TRICARE were valid.

             In performing preliminary research on the ASD(HA) concerns, we determined that
     the MCIOs generally were not notified when an ineligible individual was suspected of
     obtaining or using an identification card. Our primary objective for this evaluation,
     therefore, was expanded to encompass overall DoD effectiveness in preventing, detecting,
     and investigating ineligible military dependents that obtain identification cards, and then
     improperly derive benefits from using them.


     SIGNIFICANCE OF THE EVALUATION

             The universe of individuals receiving military health care benefits is extensive,
     consisting of 8.2 million people in FY 1997. The portion of this total represented by
     individuals who are ineligible for the benefits they receive, or the value of those benefits,
     cannot be estimated reasonably based on current OASD(HA) recordkeeping.


     SCOPE OF THE EVALUATION

             We limited our evaluation to members of the Armed Forces and their dependents.
     Our evaluation did not include Uniformed Services personnel from the Coast Guard, the
     Public Health Service, or the National Oceanic and Atmospheric Administration. We
     also limited our evaluation to transactions taking place in the Continental United States
     and those involving family members suspected of obtaining and using dependent
     identification cards improperly to obtain military health care.12




11
     Between mid-1994 and December 1996, DSO sent TMA letters concerning 7,496 individuals who lost eligibility for
     military-related benefits during some period of time. These letters are discussed in greater detail later in this report.
12
     Identification cards may also be used improperly to gain access to military commissaries and exchanges. Although we
     visited some of these facilities and interviewed program officials, we are excluding this topic from our report because
     the fraud aspects are inconsiderable. Even though a patron with an invalid identification card may gain access to these
     facilities, the individual must still pay for the goods and services obtained, albeit presumably at a savings over civilian
     stores. This is not the case with health care.




     6
                                                                            Part I - Introduction



PRIOR REVIEWS

        The U.S. General Accounting Office (GAO) and the OIG, DoD, have both
conducted significant audits and other work related to identification cards and their
improper usage. Beginning in the 1970s, these agencies reported on weaknesses in
issuing and recovering identification cards, as well as on ineligible persons who used
these cards to obtain unauthorized military health benefits. These reports identified
various systemic problems and estimated that, as a result, millions of dollars were
misspent annually. Some previous reports pointed out that lost or stolen identification
cards were easily replaced, and manually produced cards were easy to alter and
counterfeit. Appendix B identifies the relevant reports and summarizes their major
findings.


METHODOLOGY

        This evaluation sought to assess several interrelated areas:
            • how ineligible individuals are able to obtain or retain identification cards;
            • how ineligible individuals are able to enroll in DEERS;
            • how ineligible individuals with identification cards are detected;
            • how the MCIOs learn about fraudulent identification card activity and
their responses to the problem;
            • the types of punishment, including administrative actions, imposed on
sponsors and dependents for misusing identification cards; and
            • the processes and procedures used to prevent or deter fraudulent
enrollments.

       Sources of Data

       We obtained and reviewed information from the following sources:
         • official TMA records;
         • official DMDC records and statistical data;
         • previous audit and other reports addressing military health care; and
         • DCIO investigative data.

        We also conducted site verification visits and evaluated eligibility data at multiple
field locations.




                                                                                               7
Part I - Introduction



         Procedures for Collecting Data

        To determine how ineligible individuals obtain and use identification cards, and
how their actions are discovered and investigated, we evaluated the processes used,
beginning with those for issuing identification cards and continuing through subsequent
investigations and prosecutions (if any). We also examined individual steps in the
processes, from the issuing or verifying official’s actions in issuing the identification card
to an administrative or judicial remedial action taken against the offender.

        Various statutory and regulatory guidance prescribe the requirements that govern
determining eligibility and issuing identification cards that permit military health care,
and conducting investigations when suspected ineligible individuals obtain such care (see
Appendix A). Data obtained from DMDC, TRICARE, Service personnel offices, MTFs,
and the DCIOs were used to assess how the system works from application to redress.
Several sites were selected for assessing program implementation and management
controls. These sites were chosen based on information obtained from MCIO, DEERS,
TRICARE, and Service personnel officials. In identifying specific sites to visit, we
employed the following criteria for assessing their evaluation potential:
            • The number of military trainees served. We assumed that a larger trainee
volume would involve a larger flow of dependents and, therefore, a larger potential for
ineligible dependents to be processed and receive identification cards inappropriately.
            • Whether the installation served multiple Services. Multiple Service
presence would increase the number of identification card issuing offices and MCIOs
involved in investigations.
            • Whether the installation was located in an isolated area. If so, military
members would have to rely on off-site medical care and investigative support could be
limited.

        We conducted site visits at 12 military installations: 3 Army; 2 Navy; 1 Marine
Corps; 5 Air Force; and 1 joint reserve active duty base. We interviewed personnel
officers, issuing and verifying officials, MTF staff, judge advocates, and MCIO
representatives.

        We also interviewed members of the Service Personnel Advisory Committee,
since this committee serves as policy advisor to the USD(P&R) on personnel matters. In
addition, we visited or contacted officials at OASD(HA), DMDC, DSO, TMA, three
medical health service regional offices, three TRICARE contractors, and one TRICARE
payment center. The sites that we visited or contacted are identified in Appendix C.

         Analysis of Investigative Data

      We analyzed data from 81 criminal investigations involving ineligibility that the
DCIOs conducted during 1995 through 1997. Of this total, USACIDC conducted 37 for


8
                                                                   Part I - Introduction



the Army; NCIS conducted 21 for the Navy and Marine Corps; AFOSI conducted 13 for
the Air Force; and DCIS conducted 10 for the Services and Defense Agencies.




                                                                                      9
Part II –Results of Evaluation and Recommendations
         Section A


 EVALUATION OF THE INVESTIGATIVE ENVIRONMENT IN
   WHICH THE DEFENSE ENROLLMENT ELIGIBILITY
          REPORTING SYSTEM OPERATES
               PART II - RESULTS OF EVALUATION AND
                         RECOMMENDATIONS


A.      CURRENT PROCEDURES ALLOW INELIGIBLE INDIVIDUALS TO
        RETAIN IDENTIFICATION CARDS THAT MAY PERMIT
        UNAUTHORIZED ACCESS TO MILITARY HEALTH CARE FOR
        LENGTHY PERIODS

        The issuing and verifying officials that we visited followed proper procedures in
processing requests and issuing identification cards. However, personnel at only one site
took a proactive approach by specifically outlining sponsor responsibilities and liabilities,
and thoroughly questioning applicants concerning their sponsor relationships. Such an
approach helps to determine whether dependents are eligible for military benefits and
privileges before identification cards are issued or renewed. In addition, although
required to do so, sponsors had not recovered identification cards from their former
spouses in any divorce case that we reviewed. Furthermore, as discussed in Part II,
Section B of this report, MTFs generally were not effective in confiscating identification
cards from ineligible individuals. While current recordkeeping precluded us from fully
assessing the resulting impact, it is clear that this condition enabled ineligible individuals
to retain identification cards that would allow them to continue receiving military benefits
and privileges after they had become ineligible. It is also clear that, in some cases, this
condition continued for many years.

        Introduction

        DoDI 1000.13 outlines policy, procedures, and responsibilities for issuing
identification cards. The Joint Instruction (see Footnote 8), which implements
DoDI 1000.13, combines all Service-unique regulations and instructions into a
comprehensive guidebook for verifying officials. It also outlines the DEERS enrollment
process, and provides step-by-step procedures for determining eligibility, completing the
DD 1172, and issuing the identification card.

        Section 3.1. of the Joint Instruction prescribes sponsor responsibilities as follows:

             “3.1.1. Active, Retired, Guard, and Reserve sponsors should

10
                                               Part II –Results of Evaluation and Recommendations
                                                        Section A


           advise the nearest uniformed service issuing activity about any
           changes to dependent data that affect eligibility to a DD Form 1173
           or DD Form 1173-1.
           3.1.2. Provide documentation to update the DEERS for
           dependents no longer entitled to benefits and privileges (for
           example, final divorce decree, child’s marriage certificate, etc.)
           3.1.3. Retrieve ID cards from dependents no longer eligible and
           surrender the cards to the nearest ID card issuing activity.”


        Sponsor responsibilities are also outlined in Sections III and VIII of the DD 1172.
When the sponsor signs the DD 1172, he or she:
            • attests that the information is true and accurate;
            • assumes responsibility for reporting changes in dependent status;
            • agrees to surrender the card when appropriate; and
            • subjects himself or herself to fines up to $10,000 or imprisonment up to
5 years (or both) for making false statements.

        Neither this nor other DoD policy, however, establishes a deadline or timeframe
for reporting a status change, or for surrendering an identification card when an individual
becomes ineligible for military benefits and privileges.

       Issuing Identification Cards

        We interviewed issuing and verifying officials and observed enrollment
procedures at 11 issuing offices. These officials performed DEERS enrollment actions
that resulted in identification card issuances ranging from a few hundred to over 3,000 per
month. Approximately 50 percent of these actions involved dependents.

        Each issuing and verifying official that we visited followed proper procedures in
accepting and processing DD 1172s, and in issuing the identification cards. When lines
were left blank, they requested additional information. For initial enrollment requests,
they requested supporting documentation. However, personnel at only one site took a
proactive approach. Issuing officials at this site specifically outlined sponsor
responsibilities and liabilities, and thoroughly questioned applicants concerning their
sponsor relationships. The verifying official at this site advised that she, to discourage
ineligible enrollments, encouraged her issuing officials to fully, but politely, question all
enrollment applicants and remind sponsors of their responsibilities and legal liabilities.
However, none of the issuing or verifying officials tracked the number of identification




                                                                                                    11
     Part II –Results of Evaluation and Recommendations
              Section A


     cards that they denied based on ineligibility.13 Therefore, it was not possible to quantify
     or reasonably estimate the number of potential ineligible enrollments that the one issuing
     office dissuaded with its efforts, or the number that could be prevented overall through
     such efforts by issuing and verifying officials generally.

               Reporting Status Changes and Surrendering Identification Cards

              As noted above, sponsors are responsible for reporting changes in dependent
     status and surrendering identification cards when their dependents become ineligible.
     According to both personnel office and DEERS officials, however, some sponsors
     “ignore or forget” their responsibilities, especially in divorce situations. According to
     these officials, friendly divorces often result in a sponsor continuing to enroll a former
     spouse rather than providing for private health care. Similarly, hostile divorces often
     result in former spouses refusing to return their identification cards. Since states do not
     require a marriage certificate to be altered when a divorce occurs, the marriage certificate
     can still be used as supporting documentation to obtain an identification card after a
     divorce is final. These cards, and the underlying ineligible DEERS enrollments, may not
     be detected until the sponsor remarries and attempts to enroll the new spouse.

              We analyzed 81 ineligibility cases that the DCIOs investigated (see Appendix D).
     We also discussed dependent update requests with DSO officials. Thirty (37 percent) of
     the 81 DCIO investigations involved divorces that had not been reported to DEERS.
     Fifteen of the divorces had been final for at least a year, and of those, 9 had been final
     from 4 years to 26 years.14 In these nine cases, the identification cards had been renewed
     at least one time after the divorces became final, some with the sponsor’s signature and
     some with the former spouse’s signature. In the latter cases, the former spouses used
     their expiring identification cards as the basis for obtaining new cards.

              The sponsor had not recovered the identification card from the former spouse, as
     required, in any of the 30 divorce cases that we reviewed. In nearly every case, the
     sponsor claimed that no one had explained the reporting requirements or when status
     changes must be reported. By reporting the divorce after a new marriage, without regard
     to the timeframe, the sponsors believed they had fulfilled their responsibilities. However,
     during the intervening time, ineligible former spouses continued to have nominally valid
     identification cards that they could use to receive military health care benefits.


          RECOMMENDATION, MANAGEMENT COMMENTS, AND
13
     They did track the number of cards issued and the number of updates accomplished, but these statistics were not
     helpful in assessing ineligibility determinations.
14
     Overall, 9 (30 percent) had been final for less than a year, 15 (50 percent) had been final for a year or more, and we
     could not determine time for the remaining 6 (20 percent).




     12
                                            Part II –Results of Evaluation and Recommendations
                                                     Section A


                                OUR RESPONSE

       A. We recommend that the Under Secretary of Defense (Personnel and
Readiness), through the Joint Uniformed Services Personnel Advisory Committee:
           1. establish time limits for sponsors to report a change in eligibility status
for their dependents, and surrender a dependent’s identification card when the
dependent becomes ineligible for military benefits and privileges; and
           2. adopt these time limits in appropriate policy.

      OUSD(P&R) concurred and advised that the Joint Uniformed Services Personnel
Advisory Committee had been asked to establish the time limits.

        The comments are responsive to our recommendation. In responding to the final
report, OUSD(P&R) should provide an estimated completion date for adopting the time
limits in its policy.




                                                                                                 13
Part II –Results of Evaluation and Recommendations
         Section B




B.      MEDICAL TREATMENT FACILITY EFFORTS TO VERIFY
        ELIGIBILITY AND CONFISCATE IDENTIFICATION CARDS FROM
        INELIGIBLE INDIVIDUALS ARE NOT FULLY EFFECTIVE

         The Assistant Secretary of Defense (Health Affairs) and the Military Departments
all have policies requiring medical treatment facilities and TRICARE providers to verify
eligibility when an individual requests medical services, and the locations we visited all
had established procedures to effect this policy. The policies and procedures were not
applied consistently, however, and were not fully effective in detecting ineligible
individuals. In addition, even though the Joint Instruction authorizes confiscating
identification cards from ineligible individuals, only Navy policy includes actual guidance
on confiscation, and this guidance does not specifically require the action. As a result,
the policies and procedures do not ensure that identification cards are confiscated from
ineligible individuals, thereby allowing the individuals to retain them for future
unauthorized use.

        Introduction

     HA Policy 97-057, “Policy for Defense Enrollment Eligibility Reporting System
(DEERS) Eligibility Checking Requirements,” July 11, 1997, provides:

             “Effective October 1, 1997, eligibility checks will be performed
             prior to each outpatient healthcare evaluation at … [medical
             treatment] facilities with the capability for electronic validation.
             The check will be made automatically between the Ambulatory
             Data System, the Composite Health Care System and DEERS,
             transparent to the user unless the system reports an eligibility issue
             requiring intervention and patient notification…Current policy
             requiring 100 percent checks of all patients being admitted to …
             hospitals, all prescriptions written by civilian providers, and all
             nonactive duty dental visits will continue.”


        Each Military Department also requires eligibility verification. For example, Air
Force Instruction 41-115, “Authorized Health Care and Health Care Benefits in the
Military Health Services System (MHSS),” July 25, 1994, refers to eligibility verification
as a two-step process. The first step is twofold: requiring patients to present valid
identification cards; and requiring MTF staff members to ensure all patients, including
those in uniform, present valid identification prior to receiving routine care, or ancillary
or administrative services. The second step requires MTF staff members to verify a
patient’s eligibility status in DEERS. The instruction also requires each MTF to have

14
                                                                 Part II –Results of Evaluation and Recommendations
                                                                          Section B


     written instructions on how to handle patients with questionable eligibility. When this
     verification process results in questionable eligibility, routine care is supposed to be
     denied.

               MTF Efforts to Verify Eligibility

              We visited 3 health service regions and 8 MTFs, ranging from clinics to 500-bed
     hospitals, and reviewed their processes and procedures for detecting and deterring
     ineligible individuals from using the facilities. All hospitals and clinics use the
     Composite Health Care System (CHCS), which interfaces with DEERS,15 to schedule
     medical appointments and hospital admissions. They also use CHCS to track
     scheduled/walk-in appointments, emergency treatments, hospital admissions, and
     pharmacy prescriptions. When a user enters a patient name in CHCS, the system shows
     when a DEERS check was last performed on the patient. If a DEERS check has not been
     performed, or if the prior DEERS check is more than 5 days old, CHCS will
     automatically perform a new DEERS check and advise the user on current patient
     eligibility. If the user is scheduling a medical appointment or hospital admission more
     than 5 days in the future and the DEERS check will no longer be valid when the
     appointment or admission occurs, CHCS will also provide for an automatic update,
     generally 72 hours before the scheduled appointment or admission. However, the updates
     are “batch” reports16 and MTF personnel must review the batch reports to determine
     eligibility at the time of the appointment or admission. In addition, to prevent system
     problems from delaying or preventing patient scheduling, CHCS users have the option to
     bypass the automatic DEERS check capability and “batch” report all DEERS checks.

             CHCS users at the hospitals and clinics that we visited generally opted to bypass
     the automatic DEERS checking capability. In fact, they appeared to view the batch report
     capability as the automatic system capability.17 As a result, they were performing
     immediate, on-screen DEERS checks only as shown in Table 1.




15
     Some facilities do not interface with “native DEERS” and, instead, access DEERS download data. Thus, while all of
     the facilities have direct DEERS interfaces, some do not have real-time DEERS access.
16
     CHCS has the capability to accumulate, or batch together, requests for DEERS checks and then, at a designated date
     and time, produce a printed report showing results for the individual requests included in the batch.
17
     This may have been because slower MacData servers were supporting CHCS at the time of our fieldwork. Even
     though these servers have now been replaced, our recent follow-up contacts with the facilities indicate that this
     situation has not changed and CHCS’ automatic eligibility checking capability is still not being utilized fully.




                                                                                                                          15
     Part II –Results of Evaluation and Recommendations
              Section B


                                                            Table 1
                               Medical Treatment Facility DEERS Checks

                                                                                                 No. of
                                      Type of                              No. of              Facilities
                               Medical Service                          Facilities            Checking
                                                                                                DEERS

                    Scheduled/Walk-in Appointment                                8                       1
                    Emergency Treatment                                          8                       1
                    Hospital Admission                                           6*                      2
                    Pharmacy                                                     8                       8
                            * Two of the eight facilities were clinics, not hospitals.

             As Table 1 shows, the pharmacy operations at all eight medical facilities checked
     patient eligibility in DEERS. However, only one of eight hospitals or clinics
     (12.5 percent) checked DEERS eligibility in scheduling appointments and providing
     emergency treatments. Similarly, only two of six hospitals (33.3 percent) checked
     DEERS eligibility in admitting patients. Generally, except for the pharmacy operations,
     the facilities relied on CHCS data, accessing DEERS only when a potential patient was
     new to the MTF and did not have a record on file at the facility.18 CHCS has patient
     information, but not time-sensitive eligibility data.

             Furthermore, the one MTF that did perform routine DEERS checks instituted the
     practice only 6 months prior to our visit. During July 1997, that facility performed
     4,376 DEERS checks and identified 136 potential ineligibles (3.1 percent). During
     August 1997, the facility performed 7,311 DEERS checks and identified 91 potential
     ineligibles (1.2 percent). Most of the potential ineligibles had not renewed their
     identification cards, which had expired, and were referred to the issuing offices to request
     new cards. Approximately one quarter (56 individuals) of the potential ineligibles the
     MTF identified through DEERS checks were determined to be ineligible for care in non-
     emergency situations and were refused treatment.




18
     Two of the facilities did perform periodic, after-the-fact DEERS checks on the scheduled/walk-in appointment patients
     they actually served. Officials at these facilities advised that very few ineligible individuals requested care, and they
     were usually detected during these periodic reviews. However, policy requires the eligibility checks prior to treatment.




     16
                                                            Part II –Results of Evaluation and Recommendations
                                                                     Section B


              MTF Efforts to Confiscate Identification Cards From Ineligibles

           The Joint Instruction sets forth overall policy for confiscating identification cards.
     According to this policy:

                  “1.5. ID cards are government property. Any commissioned or
                  noncommissioned officer or military police member may
                  confiscate an ID card that has expired, is being fraudulently used,
                  or is presented by a person not entitled to its use...
                        1.5.2. Civilian employees (appropriated and
                  nonappropriated fund) of benefits and privileges activities … must
                  confiscate ID cards from active duty members or from retirees or
                  dependents of members of any service if the cards are:
                                    1.5.2.1. Mutilated so that their use as a credential is
                  questionable.
                                    1.5.2.2. Expired.
                                    1.5.2.3. Obviously altered.
                                    1.5.2.4. Presented by an ineligible person.
                         1.5.3. After confiscating the ID card or if involved in a
                  situation requiring confiscation, notify the installation security
                  authority immediately.
                          1.5.4. Installation security authorities investigate
                  confiscation cases or refer these cases to the appropriate service
                  special agent office … when it is warranted by circumstances or
                  according to local procedures…
                                 1.5.4.3. For cases involving fraud, misuse, or abuse
                  of an ID card, prepare DD Form 1569, Incident/Complaint Report:
                                         1.5.4.3.1. Process this form through normal
                  investigative and administrative channels.
                                         1.5.4.3.2. Send a copy of the completed
                  report to the member’s commander for appropriate action…”


             Each Military Department has regulatory guidance concerning eligibility
     verification and patient care at MTFs.19 Neither Army nor Air Force policy, however,


19
     We reviewed: Army Regulation 40-3, “Medical, Dental and Veterinary Care,” February 15, 1985; Navy Medical
     Command Instruction 6320.3B, “Medical and Dental Care for Eligible Persons at Navy Medical Department
     (Continues on next page)


                                                                                                                 17
Part II –Results of Evaluation and Recommendations
         Section B


includes guidance on card confiscation. Furthermore, while Navy guidance indicates that
an invalid card should be confiscated and forwarded to the local authorities, the guidance
does not specifically require doing so.

        Only two of the eight MTFs (25 percent) that we visited attempted to confiscate
identification cards from individuals who could not prove eligibility or who presented an
expired identification card. Staff members at these two MTFs generally telephoned their
security offices upon detecting an invalid identification card. According to MTF
officials, however, individuals with these identification cards usually left the area before
security personnel arrived. A third MTF referred questionable cardholders to the patient
affairs office. However, the director of this office stated that he seldom saw questionable
cardholders “because there are many doors between the administrative desks and his
office.” The director advised that only patients who are legitimately eligible, but who
have not been properly included in DEERS, or who have expired identification cards,
come to his office. MTF administrators, on the other hand, cited confusion over
confiscation authority and insufficient Service guidance on the types of identification
cards that should be confiscated as reasons for the low level of confiscation.

         Administrative Recoupment Actions

        Each Military Department has policy requiring MTFs to bill individuals who
receive medical treatment and who are subsequently shown to have been ineligible for the
treatment they received. In addition, each MTF that we visited had procedures for billing
ineligible patients. However, no MTF had data showing individuals that had actually
been billed, or reimbursements that had actually been received. MTF administrators
advised us that no one had ever asked for data on fraudulent medical care, or the
associated costs and recoupments. Therefore, they did not track these data.

         Management Controls

       We visited the TRICARE Management Activity, three TRICARE contractors, and
one payment center to determine their respective processes for detecting ineligible
individuals and for deterring them from using the TRICARE program. We found that
TMA had not instituted management controls to detect and deter ineligible individuals.
However, we also found that the three TRICARE contractors we visited, as well as the
payment center, had controls in place and were effectively following procedures.

       DoDD 5010.38, “Management Controls Program,” August 26, 1996, requires
DoD components to identify weaknesses in their assessable units and submit Annual
Statements of Assurance, including plans and timelines for correcting material

Facilities,” May 14, 1987; and Air Force Instruction 41-115, “Authorized Health Care and Health Care Benefits in the
Military Health Services System (MHSS),” July 25, 1994.




18
                                                               Part II –Results of Evaluation and Recommendations
                                                                        Section B


     weaknesses. TMA, through ASD(HA), submits Annual Statements of Assurance. The
     TMA Annual Statement of Assurance dated October 3, 1997, rated controlling fraud and
     abuse cases as “high,” with controls provided by in-house reviews.

             TMA, with DCIS input and advice, had instituted an aggressive management
     control plan to detect fraudulent provider and medical institution practices. TMA and
     DCIS officials advised us that the fraud indicators used in this plan had been highly
     successful in detecting providers and institutions that committed fraud. However, a
     similar plan had not been instituted to assist in detecting beneficiary fraud.20



       RECOMMENDATIONS, MANAGEMENT COMMENTS, AND
                     OUR RESPONSE

             B.1. We recommend that the Assistant Secretary of Defense (Health
     Affairs) direct medical treatment facility commanders to comply with existing policy
     that requires:
                    a. 100 percent eligibility checks using the Defense Enrollment
     Eligibility Reporting System prior to treating military personnel or their
     dependents;
                    b. confiscating identification cards from ineligible individuals who
     seek military medical care and forwarding those cards to local authorities; and
                    c. initiating administrative recoupment actions for cost incurred
     when suspected ineligible individuals obtain unauthorized military medical benefits.

           OUSD(P&R) concurred and advised that complete implementation was planned
     by November 1, 1999.

          The management comments are responsive. In responding to the final report,
     OUSD(P&R) should advise whether it was able to meet the planned date.

            B.2.        We recommend that the Assistant Secretary of Defense (Health
     Affairs):
                    a. require the TRICARE Management Activity to implement an
     aggressive management control plan with fraud indicators that helps detect
     ineligible individuals who apply for and receive medical care through TRICARE;
     and
                    b. consider making this plan part of the TRICARE Management


20
     In accordance with the IG, DoD “Revised Interim Guidance for Criminal Investigations of Fraud Offenses Jurisdiction”
     referenced previously, the MCIOs are responsible for investigating beneficiary fraud.




                                                                                                                      19
Part II –Results of Evaluation and Recommendations
         Section B


Activity’s Annual Statement of Assurance submitted in accordance with DoD
Directive 5010.38, “Management Control Program,” August 26, 1996.

         OUSD(P&R) nonconcurred. According to OUSD(P&R):
             • the Uniformed Services are responsible for determining a person’s
eligibility as a TRICARE/CHAMPUS beneficiary;
             • TRICARE does not have authority to determine or terminate eligibility;
             • a management control program more properly lies with the Uniformed
Services to ensure DEERS information is accurate and valid;
             • TMA has authority to mandate that DEERS be accessed for each claim to
ensure the individual is eligible for the dates of service being billed and this is currently
being done;
             • as indicated above (in response to Recommendation B.1.), MTFs will
perform a 100 percent DEERS eligibility check for care done in the direct care system;
and
             • the existence and use of an accurate centralized eligibility database
(DEERS) is a major fraud control tool.

        OUSD(P&R) apparently misunderstood our recommendation. Our
recommendation addresses a need for detecting possible beneficiary fraud, not authority
for determining or terminating eligibility. Furthermore, we recommended the same
approach for detecting beneficiary fraud as was already in use for detecting medical
provider fraud. As discussed in the report, TMA, with DCIS input and advice,
implemented a successful management control plan to detect fraudulent provider and
medical institution practices. Working with the MCIOs to develop fraud indicators for
beneficiary fraud and implementing a similar plan focusing on possible beneficiary fraud,
as we recommended, should be similarly successful.

        In addition, in the draft report, we related statements by both TMA program
integrity and legal representatives, and noted that their attitudes appeared to limit actions
on beneficiary fraud. In commenting on the draft report, OUSD(P&R) advised that the
statements we referenced were taken out of context. According to OUSD(P&R), the
statements did not relate to fraud cases, but to ID cards issued erroneously to individuals
who had lost eligibility for CHAMPUS/TRICARE because they had attained eligibility
for Medicare Part A, under age 65, due to disability or end stage renal disease (see
Appendix E). In view of the clarification that the statements were intended to relate only
to a certain type of case, we have deleted the statements and our reference to them in the
final report.




20
                                                            Part II –Results of Evaluation and Recommendations
                                                                     Section C




     C.       TRICARE DOES NOT HAVE A DOCUMENTED SYSTEM FOR
              DEVELOPING, REFERRING, OR TRACKING POTENTIAL
              INELIGIBILITY FRAUD OFFENSES THAT WARRANT CRIMINAL
              INVESTIGATION.

             The TRICARE Management Activity cannot identify the extent to which potential
     ineligibility cases are referred for investigation. Further, while the DEERS Support
     Office has begun a computer matching process that represents a good first step toward
     addressing ineligibility medical cases, this process is incomplete and is also based on a
     threshold for investigative referral that would “forgive” most ineligibility fraud. Such a
     result would be contrary to existing policy that requires administrative recoupment
     actions.

              Developing, Referring and Tracking Investigative Cases

              TMA publishes an annual “Chartbook of Statistics,” which includes statistics on
     “Fraud and Abuse Cases Finalized” in the prior fiscal year.21 According to these
     statistics, TMA finalized 235 fraud and abuse cases in FY 1994, including 68 (29 percent)
     beneficiary/sponsor cases. For FY 1995, TMA finalized 253 fraud and abuse cases,
     including 43 (17 percent) beneficiary/sponsor cases. In December 1996, during research
     for another proposed evaluation, we asked TMA for specific information on the
     68 FY 1994 and 43 FY 1995 beneficiary/sponsor cases (111 cases in total). TMA,
     however, could not identify the individual cases. TMA also could not furnish
     information on either the dollar amounts involved or the final case dispositions.

             We also asked TMA for information on additional beneficiary fraud and abuse
     cases. We specifically requested information on potential offenders, alleged offenses,
     dollar amounts involved and case status, including the case opening date, the date
     forwarded for investigation and the investigation closure date. In February 1997, the
     TMA submitted a hand-written, fragmented listing showing 66 fraud and abuse cases. Of
     the total, 15 cases (22.7 percent) involved possible ineligibility. The remaining 51 cases
     involved other health insurance coverage, drug or emergency room over-utilization, false
     claims, or altered receipts.

              The 15 potential ineligibility cases had the following characteristics:



21
     An example is, “CHAMPUS Chartbook of Statistics: Civilian Health and Medical Program of the Uniformed
     Services,” December 1995 (OCHAMPUS Guide 5400.2-CB).




                                                                                                                 21
     Part II –Results of Evaluation and Recommendations
              Section C


                 • estimated Government losses (ranging from $4,043 to $62,584 per case)
     were identified for 9 cases, but estimated losses were not determined for the remaining
     6 cases;
                 • 10 cases were awaiting action in the TMA Program Integrity Branch;
                 • 1 case had been closed following a criminal investigation and prosecution
     that resulted in a conviction;
                 • 1 case had been closed without a criminal investigation following an
     administrative recoupment action; and
                 • 3 cases had been referred to DCIS for criminal investigation in accordance
     with a Memorandum of Understanding between OASD(HA) and DCIS then in
     existence.22

              In September 1997, we asked the Program Integrity Branch for an updated case
     listing, including new potential cases. The response, which again was handwritten and
     fragmented, included 7 additional potential ineligibility cases, increasing the total to
     22 cases.

             In December 1996 and October 1997, we visited TMA to review the processes
     used to develop, refer for investigation, and track potential eligibility fraud cases. The
     TMA, however, did not have a documented process for these purposes.23 Although TMA
     Program Integrity Branch officials estimated that TMA was processing approximately
     1,000 possible fraud cases, they could not furnish actual statistics, identify the cases
     involving possible beneficiary fraud, or share case status information. According to the
     officials, TMA did not have or plan to have a database to track its fraud case
     developments or investigative referrals.

               DSO Referrals to TMA

             As noted previously, ASD(HA) advised that the DEERS Support Office was
     sending the TRICARE Management Activity monthly letters identifying individuals who
     had become ineligible for military benefits and privileges. DSO began this practice in
     mid-1994, so TMA could determine whether an ineligible individual had received
     military medical care during the month.24 If so, TMA could then decide how to seek
     monetary recovery from the ineligible individual. From mid-1994 through the end



22
     See Appendix B, page B-2, final bullet.
23
     Several TMA employees were responsible for individual cases and maintained files in their work areas. They could
     not, however, readily identify or locate individual files, or relate specific case data. The procedures in effect did not
     constitute an effective, documented process that could be used and relied upon for thoroughness, completeness, or
     consistency.
24
     DSO discontinued sending the monthly letters after December 1996, because it was not receiving any feedback.




     22
                                             Part II –Results of Evaluation and Recommendations
                                                      Section C


of 1996, DSO forwarded 7,496 such letters to TMA, but did not receive any feedback on
the dispositions.

        At the time of our research visit in December 1996, TMA officials had not opened
the DSO letters, much less used the information to determine whether the individuals had
received medical benefits during periods when they were ineligible. TMA officials
considered the potential fraud to be against DEERS and, therefore, not requiring their
action.

        Subsequently, in October 1997, TMA Program Integrity Branch officials advised
us they had reviewed all 7,496 letters and determined that none required further action.
The officials, however, could not furnish us information on when the reviews had been
accomplished, how many of the 7,496 individuals received medical care after becoming
ineligible for military benefits, or the dollar amounts (estimated Government losses)
involved. They had not entered any data on the individuals in official TMA records. The
officials, however, reemphasized their position that they did not need a data system to
track potential fraud cases.

        In May 1997, working with DMDC officials, we asked TMA to use the
CHAMPUS Detail Information System (CDIS) and run a computer match on the
individuals identified in the 7,496 letters sent to TMA. The CDIS contains 6 years of
medical data on all individuals who have received TRICARE (or prior CHAMPUS)
benefits. Between May and December 1997, TMA attempted various computer data
matches to satisfy our request. None was completely successful.

       DSO Has Implemented a Partial Solution

         In mid-1997, the DEERS Support Office initiated a partial solution to the
problems involved in reviewing potential ineligibility cases. DEERS Support Office
personnel were trained on operating the TRICARE data system and began comparing
eligibility dates against TRICARE usage data from MTFs to identify potential
ineligibility cases. DSO adopted a $25,000 loss-to-the-Government threshold for
referring such a case to the appropriate MCIO.

         The matching process that the DEERS Support Office implemented is a good
initial step in addressing potential ineligibility fraud cases. This process, however, is
incomplete in that it does not include specific guidance on how DSO, or the TRICARE
Management Activity, should process these potential cases. In addition, the $25,000
threshold for criminal investigative referrals appears to be excessive and not based on
cost considerations, such as the cost to investigate and prosecute an ineligibility case.
The MCIOs should have various costs and other data that DSO could use in determining
whether a specific case should be referred for investigation. Most importantly, the
current process does not address how TMA or DSO should pursue possible
administrative remedies for:


                                                                                                  23
     Part II –Results of Evaluation and Recommendations
              Section C


                    •    ineligibility cases not referred for criminal investigation and prosecution;
     or
                •        ineligibility cases referred for criminal investigation, but not ultimately
     prosecuted.

             On the contrary, it appears that DSO’s referral threshold will result in DoD
     effectively “forgiving” those cases involving less than $25,000.25 Such a result would be
     contrary to existing policy that requires the TRICARE Management Activity to undertake
     administrative recoupment actions.

               Contract Providers and Payment Centers

             We also visited three TRICARE contractors and one payment center to review
     their processes for developing potential TRICARE fraud and abuse cases. As opposed to
     internal TRICARE procedures, each contractor that we visited had a systematic approach
     to reviewing, documenting, and referring ineligibility cases. These procedures included
     referring the case for TMA review and guidance prior to initiating an administrative
     recoupment action. The referral packages contained complete documentation on patient
     visits and costs.26


          RECOMMENDATION, MANAGEMENT COMMENTS, AND
                       OUR RESPONSE

            C. We recommend that the Director, TRICARE Management Activity, with
     input from the Military Criminal Investigative Organizations, implement a system
     for developing, referring for criminal investigation, and tracking cases that involve
     military health care provided to suspected ineligible individuals. This system should
     include procedures and timelines for pursuing administrative remedies in cases
     determined not to warrant criminal investigation and prosecution. It should also
     include procedures and timelines for pursuing administrative remedies in cases
     referred for criminal investigation, but ultimately not prosecuted, unless a
     determination is made that the individual was eligible for the health care received.

               OUSD(P&R) nonconcurred, advising that:


25
     If applied to actual 1995 through 1997 criminal investigations, this threshold would eliminate 91 percent of the total
     (see Footnote 32).
26
     One contractor that we visited referred 227 potential fraud cases to TMA during the 18 months preceding our visit. Of
     the total referrals, 25 (11 percent) concerned eligibility. At the time of our visit, however, the contractor had not
     received any TMA guidance on the 25 eligibility cases.




     24
                                              Part II –Results of Evaluation and Recommendations
                                                       Section C


            • the Uniformed Services are responsible for determining eligibility;
            • TMA requires DEERS edits to validate each claim processed;
            • if DEERS incorrectly indicates eligibility and this is discovered, TMA has
procedures and time frames for taking appropriate action, whether or not fraud is
suspected; and
            • military treatment facilities and dental treatment facilities:
                   § have procedures for confiscating invalid ID cards presented by
beneficiaries upon being admitted into the facility or for outpatient medical care;
                   § perform DEERS checks to determine eligibility and authorize
access to care;
                   § review ID cards to ensure they have not expired; and
                   § have the patient affairs function and hospital security staff work
together to confiscate the ID card and further handle the matter with the beneficiary if
they determine the beneficiary has lost eligibility or the individual’s ID card has expired.

        These comments are not responsive to our findings that led to this
recommendation. In the draft report, we recognized that ASD(HA) and the Military
Departments all have policies requiring medical treatment facilities and TRICARE
providers to verify eligibility when an individual requests medical services. In addition,
as noted in the report, the locations we visited all had procedures to effect this policy.
However, we found that these policies and procedures were not applied consistently and
were not fully effective in detecting ineligible individuals. As shown in Table 1, only one
of eight (12.5 percent) hospitals and clinics that we visited was performing DEERS
checks to ensure eligibility prior to treating walk in/scheduled appointment patients.
Further, only two of six hospitals (33.3 percent) were checking DEERS for eligibility
prior to admitting patients into the hospitals.

        We also found that, even though policy authorizes confiscating identification
cards from ineligible individuals, current policies and procedures do not ensure
confiscation. As noted in Part II, Section B of this report, only two of eight MTFs
(25 percent) that we visited attempted to confiscate identification cards from individuals
who could not prove eligibility or who presented an expired identification card.
Furthermore, MTF officials recognized that confiscation was not fully effective. As
pointed out in the report, in fact, some officials advised us that:
           • individuals with invalid identification cards usually leave before security
personnel arrived; and
           • questionable cardholders seldom reach the patient affairs office “because
there are many doors between the administrative desks and … [the patient affairs office].”

        We could not determine the full extent of this problem because the facilities that
we visited did not maintain records on the ID cards they questioned or confiscated.
However, as discussed in the report, 37 percent of DCIO ineligibility investigations
conducted during 1995 through 1997 involved divorced spouses. Fifty percent of these


                                                                                                   25
     Part II –Results of Evaluation and Recommendations
              Section C


     divorce cases involved divorces that had been final for at least 1 year and the time ranged
     from 1 year to 26 years. Based on the investigative files, an MTF or TRICARE provider
     had confiscated the ID card in only 6.7 percent of the divorce cases. Clearly, the current
     policies and procedures do not ensure that ID cards are confiscated from ineligible
     cardholders.

             Furthermore, we found that TMA does not have a documented system for
     developing, referring, or tracking potential ineligibility fraud offenses warranting criminal
     investigation and, as a result, cannot identify the extent to which potential ineligibility
     cases are referred for investigation. TMA also does not have a documented system and
     cannot identify the extent to which potential ineligibility cases are referred for
     administrative action, or the results of either administrative or investigative actions.
     Overall, we found that this situation exemplifies a condition in which the DoD does not
     have an effective program to prevent, detect, or investigate ineligibility health care fraud.
     We believe that ASD(HA) should implement our recommendation to overcome this
     condition.

              Additional OUSD(P&R) comments on this section of the draft report.

              1. OUSD(P&R) advised that we incorrectly stated TMA officials had not opened
     the 7,496 letters from DSO at the time of our visit in December 1996. According to
     OUSD(P&R), the letters were opened on a daily basis and, where it was determined
     TRICARE dollars had been spent, referrals were made to the fiscal intermediaries to
     initiate recoupment. OUSD(P&R) also advised that our evaluator was provided boxes of
     documents substantiating both the TMA referrals and resulting responses from the fiscal
     intermediaries confirming initiation of recoupment action.

             Our case record does not support the management comments. At the time of our
     research visit in December 1996, TMA officials had not opened the DSO letters and
     advised us that they did not plan to do so.27 They related several reasons, including staff
     limitations, the limited benefits possible from resolving beneficiary fraud cases, and a
     belief that the potential fraud involved in the DSO letters constituted fraud against
     DEERS and not warranting their involvement. Subsequently, in October 1997, TMA
     officials advised us that they had completed reviewing the DSO letters, but could not
     furnish any supporting records or information. We then learned that, following a meeting
     held at TMA on April 22-23, 1997, the DSO letters were transferred to DMDC offices in
     Monterey, California, to be part of a potential “partnership” effort between DMDC, DSO,
     and Operation Mongoose.28 The potential partners met to determine the best way to


27
     Nonetheless, we examined one of the boxes containing the DSO letters, which were located throughout the TMA
     Program Integrity Branch, and confirmed these letters were unopened.
28
     Operation Mongoose is a joint IG, DoD, Defense Finance and Accounting Service (DFAS), and DMDC project that
     uses computer matching and other techniques to identify potential problems with Government payments to retirees,
     venders, "ghost" employees, and transporters/haulers.




     26
                                                                Part II –Results of Evaluation and Recommendations
                                                                         Section C


     review the letters that had been sent to TMA and Operation Mongoose’s potential role in
     the efforts. As a result of the meeting:
                 • two DSO employees and one Operation Mongoose employee were trained
     on using the CDIS; and
                 • 9,001 DSO letters, including the 7,496 letters originally sent to TMA and
     additional letters that DSO continued to generate after it stopped referring them to TMA,
     were transferred to Monterey where DSO and Operation Mongoose could compare
     individual ineligibility identified in the letter with information in CDIS files.29

             We recognize the overall efforts of OUSD(P&R) to address the ineligibility issue
     that DSO identified. However, such special efforts should not have been necessary. In
     accordance with OCHAMPUS 5105.2-M, TMA is responsible for planning, developing,
     and evaluating projects for preventing, detecting, and controlling program fraud, waste,
     and abuse. TMA is also responsible for conducting specialized investigations when an
     individual or entity is suspected of program fraud, waste, or abuse. Despite these
     responsibilities, TMA did not aggressively pursue ineligibility issues when DSO brought
     those issues to its attention. Furthermore, as discussed in the report, TMA does not have
     a documented, systematic process for developing, referring, or tracking investigative
     referrals or administrative actions involving military health care matters. It would appear
     that TMA must have such a process to meet its responsibilities. As pointed out in the
     draft report, this situation was part of an overall condition that precluded us from
     determining, or even reasonably estimating, the extent to which DoD has a problem with
     ineligibles receiving military health care, or the resulting unauthorized cost that DoD
     incurs.

             2. OUSD(P&R) also clarified information related to TMA and DMDC efforts, at
     our request, to use the CHAMPUS Detail Information System and run a computer match
     on the individuals identified in the 7,496 letters. In the draft report, we indicated that the
     efforts were unsuccessful due to missing TRICARE data. However, OUSD(P&R)
     advised that:
                • they were unaware of any missing information and, in fact, CDIS is
     accepted in court cases as complete and valid; and
                • although the computer runs may not have provided the information the
     evaluation team desired, TMA is unaware the evaluation team raised a concern about
     missing information at the time they received the data.

            We did not intend to imply a problem with CDIS data completeness or validity.
     Our reference to missing TRICARE data was intended to refer to our inability to obtain
     complete “fraud and abuse” case information from TMA, which we discussed at length in

29
     At the time of our field visit to DMDC in December 1997, DSO employees were continuing the reviews. However, we
     doubted complete success due to the age of the cases at that point and because CDIS would not identify all health care
     an individual may have received after becoming ineligible.




                                                                                                                        27
Part II –Results of Evaluation and Recommendations
         Section C


the draft report. However, to avoid confusion, we have amended language in the final
report.

        3. OUSD(P&R) also provided a correction related to whether TMA or DSO has a
$25,000 threshold for referring potential beneficiary fraud cases for criminal
investigation. In the draft report, we recognized that DSO had adopted such a threshold,
but observed that TMA apparently intended to forgive beneficiary fraud cases below the
threshold. OUSD(P&R) indicated that TMA Program Integrity does not have a dollar
limit on the provider or beneficiary fraud cases it accepts. The final report includes the
correction.

        4. In addition, OUSD(P&R) questioned a statement in the draft report dealing
with the amount of fraudulent claims that two contractors we visited had denied.
According to OUSD(P&R):
            • contractors must forward all fraud cases to the TMA Program Integrity
Branch and must also furnish reports that identify fraud and abuse savings; and
            • based on the contractor case referrals and reports, in no single 6 month
period were dollars reported that come anywhere close to the amounts quoted in the draft
report.

        OUSD(P&R) is correct. Upon reviewing the factual information, we determined
that the total amount referenced in the draft report was not fraudulent claims, but total
claims processed, and that the amount identified as ineligibility fraud was the total denial
amount. Since this statement was not central to the overall discussion, we have deleted it
from the final report.




28
                                                                  Part II –Results of Evaluation and Recommendations
                                                                           Section D




     D.        MOST CRIMINAL INVESTIGATIONS INVOLVING INELIGIBILITY
               ARE CLOSED WITHOUT CRIMINAL, CIVIL, OR
               ADMINISTRATIVE REMEDY, AND THE REMAINDER DO NOT
               RECOVER ESTIMATED GOVERNMENT LOSSES

              Most (66 percent) criminal investigations involving ineligibility that were
     conducted during 1995 through 1997 were not accepted for prosecution, or were closed
     without criminal, civil, or administrative remedies. Further, those investigations that did
     result in criminal, civil, or administrative remedies produced monetary recoveries equal to
     only 5.1 percent of the estimated Government losses. Based on these investigative
     outcomes, unless OASD(HA) requires aggressive administrative recoupment actions,
     most unauthorized costs that DoD incurs from ineligibility medical fraud will not be
     recovered.

               Introduction

             The IG, DoD “Revised Interim Guidance for Criminal Investigations of Fraud
     Offenses Jurisdiction,” October 23, 1996, assigns the MCIOs primary responsibility for
     investigating military health care fraud committed by beneficiaries. We met with
     representatives from each MCIO headquarters and 12 field offices to review their
     procedures and processes for investigating potential ineligibility fraud cases and referring
     them for prosecution or administrative actions. We also asked the DCIOs for data on
     their 1995, 1996, and 1997 criminal investigations that involved alleged ineligibility
     fraud.

               DCIO Investigations Involving Ineligibility for Medical Care

             During calendar years 1995 through 1997, the DCIOs continued 4 investigations
     opened prior to 1995, opened 77 new investigations (81 total investigations), and closed
     74 investigative cases that involved potential ineligibility for medical care.30 The 81 total
     investigations31 involved a total $1.4 million estimated Government loss for military

30
     Three of these cases involved investigative activity, but never became full investigations because initial investigator
     contacts with prosecutors disclosed they did not have prosecution appeal.
31
     Seventeen of these cases were included in the TMA case listings (22 total cases) discussed previously. However, there
     is no evidence that they were investigative case referrals from any OASD(HA) organization. Further, while medical
     personnel were sources of the allegations causing some of the criminal investigations, most (53, or 65 percent) resulted
     from allegations from other sources. Based on the records maintained, we could not determine if any actual criminal
     investigation addressed an ineligibility issue identified in the 7,496 letters that the DEERS Support Office sent to the
     TRICARE Management Activity.




                                                                                                                               29
     Part II –Results of Evaluation and Recommendations
              Section D


     medical care given to allegedly ineligible individuals.32 Of the 74 closed investigations,
     25 (34 percent) were closed with one or more types of remedial results, including
     criminal prosecutions, civil recoveries, administrative recoveries, or other administrative
     actions.33 The remaining 49 cases (66 percent) did not result in prosecutions or other
     remedial actions. Generally, the latter closures were based on prosecutor decisions that
     the cases lacked criminal intent, or the amounts involved were too small to warrant
     prosecutions. Appendix D includes these and other statistics on the DCIO investigations.

              Database Checks That Could Assist Investigations

              An ineligible individual who obtains an identification card may obtain military
     health care improperly. Additionally, a sponsor who does not remove a divorced spouse
     or other ineligible dependent from DEERS may also not remove the ineligible dependent
     from military pay and housing records, which could result in additional unauthorized
     costs to the Government. Therefore, including database checks in the criminal
     investigation could result in identifying other criminal activity by, or improper payments
     to, an ineligible individual. In any event, the data checks would enhance investigative
     thoroughness and prosecution potential.

             We developed a database checklist for use in reviewing actual MCIO eligibility
     investigations. Our checklist included the DEERS and TRICARE databases; the local,
     nearby, or point of residence MTF (i.e., the MTF that most likely would serve the
     individual receiving medical care); and the local housing office (if an active-duty
     sponsor). Table 2 below shows the results of comparing our checklist with actual data
     checks in the 81 ineligibility cases that the DCIOs investigated during 1995 through 1997.


                                                          Table 2
                  Database Checks Conducted During Criminal Investigations

                                                    Was the Database Checked?
                   Type of                Yes                  No                N/A *                Total
                    Check            No.        %        No.        %        No.       %        No.        %
                DEERS                36        44        43         53       2         2         81        100



32
     The estimated Government loss averaged $16,765 per case. Forty percent of the cases involved less than $1,000.
     Seventy-eighty percent involved less than $10,000. Ninety-one percent involved less than $25,000.
33
     Only 12 of these cases (16 percent) resulted in monetary recoveries. These recoveries totaled $39,363, or 5.1 percent
     of the total estimated loss for the closed cases.




     30
                                              Part II –Results of Evaluation and Recommendations
                                                       Section D


        MTF              43     53      36      44       2        2        81       100
        TRICARE          30     37      49      60       2        2        81       100
        Housing          11     14      8       10       62       76       81       100

        * Includes two cases that we could not determine if database checks
          would have been applicable. In addition, 60 of the investigations did
          not involve active-duty members and, accordingly, housing checks
          were not applicable to these investigations.

        As Table 2 shows, data checks were frequently not completed when they were
potentially applicable to the cases under investigation:
            • DEERS checks were not completed in 53 percent of the cases;
            • MTF checks were not completed in 44 percent of the cases;
            • TRICARE checks were not completed in 60 percent of the cases; and
            • Housing checks were not completed in 10 percent of the cases.

         One USACIDC investigation that we reviewed illustrates how conducting these
data checks might have identified a higher potential Government loss, thus improving
chances for criminal prosecution. This USACIDC investigation involved a spouse who
lost eligibility upon divorcing the military sponsor. After becoming ineligible for military
health care, the spouse continued to seek emergency treatment personally and for two
children. In this case, the investigator checked the DEERS database to confirm
ineligibility. The investigator also identified medical costs totaling $847 for treatments at
the local military hospital. Due to the minimal loss to the Government, the Assistant
United States Attorney (AUSA) declined the case for prosecution. Had TRICARE
records been checked, however, the investigator would have discovered that the
individual had received TRICARE benefits totaling over $33,000 during the overall
period after becoming ineligible. The total amount would have exceeded the AUSA’s
threshold for prosecution. In addition, the investigative file does not indicate that the
investigator considered including the sponsor in the investigation even though the
sponsor had not reported the status change (divorce) to DEERS as required.

       MCIO Access to Databases

         An investigator should access specialized databases with information relevant to
the investigation. In ineligibility cases, both DEERS and CDIS are specialized databases
with highly relevant information. DEERS contains eligibility dates and reasons for
eligibility terminations. CDIS contains a 6-year history that covers medical claims from,
and payments to, an individual. To receive CDIS data, however, the MCIOs must write
to TMA requesting the access, detailing the exact information required, and justifying the
need. Following this process to receive CDIS information could significantly delay the
criminal investigations.

                                                                                                   31
Part II –Results of Evaluation and Recommendations
         Section D


        TMA officials stated concern about allowing the MCIOs ready access to CDIS.
They indicated that the system was complicated to use and contained privacy information.
However, TMA had granted CDIS access to over 900 users, including DCIS agents, and
had trained these system users. The MCIOs should also be given access to, and training
on using, CDIS to aid their military health care investigations.


  RECOMMENDATIONS, MANAGEMENT COMMENTS, AND
            EVALUATION RESPONSE

       D.1. We recommend that the Director, TRICARE Management Activity,
arrange for the Military Criminal Investigative Organizations to receive access to,
and system training on using, the CHAMPUS Detail Information System to aid their
military health care investigations.

       OUSD(P&R) nonconcurred. According to OUSD(P&R):
           • TRICARE has a Memorandum of Understanding with DCIS under which
fraud cases are forwarded for investigation;
           • DCIS is the lead DoD agency responsible for fraud involving the
TRICARE program and includes the MCIOs in health care task forces in those areas
where the MCIOs may have jurisdiction;
           • experts in Operation Mongoose have access to multiple databases and
should be included as a point of contact for the MCIOs to ensure maximum recovery of
Government dollars; and
           • it is essential that the MCIOs work cooperatively as part of the existing
multidisciplinary team to combat health care and other eligibility fraud.

        The draft report referenced the MOU between OASD(HA) and DCIS. This MOU
was dated June 28, 1995, and initially did provide that TMA would refer to DCIS any
potential criminal case involving $10,000 or more. However, after the MOU was
executed, the IG, DoD issued the “Revised Interim Guidance for Criminal Investigations
of Fraud Offenses Jurisdiction,” October 23, 1996, assigning the MCIOs primary
responsibility for investigating military health care fraud committed by beneficiaries.
Following this new guidance, on April 17, 1997, DCIS forwarded a memorandum to
TMA advising:

             “Paragraph 3.f. of the revised Interim Guidance for Criminal
             Investigations of Fraud Offenses dated October 23, 1996, states
             that the … MCIOs … have primary jurisdictional responsibility for
             allegations of fraud perpetrated against … OCHAMPUS …, a
             fiscal intermediary or other health care providers or insurers by
             Military Service members, military retirees and dependents who


32
                                            Part II –Results of Evaluation and Recommendations
                                                     Section D


           have received, made claims for or requested benefits or services
           under such program or operation. Accordingly, … DCIS …
           requests that OCHAMPUS refer all allegations of beneficiary fraud
           to the appropriate MCIO for investigation, regardless of alleged
           dollar loss to the Government. The DCIS offices have also been
           advised that such allegations should be referred to the MCIOs…”


        Accordingly, while OUSD(P&R) is correct that DCIS is the DoD agency with
lead responsibility for investigating fraud involving the TRICARE program, jurisdictional
responsibility for beneficiary fraud cases was specifically assigned to the MCIOs. The
MCIO investigations would be enhanced with the database access and training that we
recommended. They would also be enhanced with the Operation Mongoose contacts that
OUSD(P&R) suggested. We have therefore modified our recommendation below to the
MCIOs.

       D.2. We recommend that the Military Criminal Investigative Organizations
implement procedures that ensure their criminal investigators who conduct military
health care investigations check all relevant databases, including those under
Operation Mongoose cognizance, in determining the types of criminal conduct
involved and the resulting total losses to the Department of Defense.




                                                                                                 33
                                                                            Appendix A. Statutory and Regulatory Authority




     Appendix A. Statutory and Regulatory Authority

             Various statutes and regulatory guidance cover eligibility for receiving military
     benefits and the penalties for misusing or abusing those benefits. The key documents are:
                 • Title 10, United States Code, Section 1071 (10 U.S.C. §1071). Provides
     for an improved, uniform medical and dental care program for members and certain
     former members of the Uniformed Services and their dependents.
                 • 10 U.S.C. §801, et seq. Uniform Code of Military Justice. Sets out the
     jurisdiction and procedures for administering discipline in the Armed Forces through
     judicial and non-judicial proceedings, including courts-martial. Also sets out the specific
     crimes that may be prosecuted under the Code and the punishments authorized.
                 • 18 U.S.C. §287 and §1001. U.S. Criminal Code provisions that address
     “False, Fictitious, or Fraudulent Claims” and “Fraud and False Statements,” respectively.
     These provisions are cited on DD Form 1172 as crimes applicable to sponsors who enroll
     ineligible individuals in DEERS, and ineligible individuals who fraudulently receive
     military benefits.34
                 • Title 32, Code of Federal Regulations, Part 199 (32 C.F.R. §199).
     Specifies eligibility for TRICARE and requirements for submitting TRICARE claims.
                 • Public Law (P.L.) 104-191, “The Health Insurance Portability and
     Accountability Act of 1996.” This Act, commonly known as the Kennedy-Kassebaum
     Act, establishes health care fraud as a specific crime and facilitates law enforcement
     (criminal, civil and administrative) in health care matters.
                 • Department of Defense Directive (DoDD) 1000.22, “Uniformed
     Services Identification (ID) Cards,” October 8, 1997. Establishes DoD policy for
     issuing ID cards to members of the Uniformed Services, their eligible dependents and
     other eligible individuals. Assigns USD(P&R) responsibility for the eligibility and
     enrollment program.
                 • DoD Instruction (DoDI) 1000.13, “Identification (ID) Cards for
     Members of the Uniformed Services, Their Dependents, and Other Eligible
     Individuals,” December 5, 1997. Implements DoD policy, responsibilities and
     procedures for issuing ID cards and establishing eligibility for military benefits and
     privileges.
                 • DoDD 1341.1, “Defense Enrollment Eligibility Reporting System,”
     October 14, 1981. Sets forth implementing guidance and procedures for DEERS.



34
     Various other criminal provisions could also apply to this type crime, depending on the specific facts and
     circumstances involved in the criminal action or activity. We are not listing all possible citations to criminal code that
     might be applicable to an individual case.




                                                                                                                           A-1
Appendix A. Statutory and Regulatory Authority



            • DoDI 1341.2, “DEERS Procedures,” March 2, 1982. Delineates
DEERS procedures and outlines responsibilities for the DEERS Program Office and
Program Manager.
            • IG, DoD, Revised Interim Guidance, “Revised Interim Guidance for
Criminal Investigations of Fraud Offenses Jurisdiction,” October 23, 1996.
Superceded IG, DoD Interim Guidance, “Jurisdiction for Fraud Investigations, June 9,
1995. The interim guidance and revised interim guidance both assigned the MCIOs
responsibility for investigating fraud allegations that involve:
                    § military activities, installations, or facilities, especially those
affecting the health, welfare, and morale of military service personnel (or their
dependents); and
                    § OCHAMPUS, a fiscal intermediary, or other health care provider
or insurer of military service members, military retirees and dependents who have
received, made claims for, or requested benefits or services under such program or
operations;
            • Joint Service and Uniformed Services Instruction, “Identification
Cards for Members of the Uniformed Services, Their Family Members, and Other
Eligible Personnel,” March 1, 1998 (the Joint Instruction). Implements DoD policy
for preparing, issuing, using, accounting for, and disposing of military ID cards.
Incorporates most Uniformed Services procedures and reflects unique Service
information. Issued by order of the various departmental Secretaries, with individual
citations as follows:
                    § Army Regulation 600-8-14;
                    § BUPERS Instruction 1750.10A, Change 1;
                    § Marine Corps Order P5512.1B, Change 1;
                    § Commandant Instruction M5512.1;
                    § Air Force Instruction 36-3026(I); and
                    § Commissioned Corps Personnel Manual 29.2, Instructions 1 and 2.




A-2
                                                                      Appendix B. Relevant Prior Reports and Findings




     Appendix B. Relevant Prior Reports and
     Findings

                 • GAO-B-133142, “Potential for Improvements in the Civilian Health
     and Medical Program of the Uniformed Services,” July 19, 1971. GAO found that the
     Government was incurring unnecessary CHAMPUS costs because identification cards,
     showing eligibility, were not being recovered from dependents when military members
     either separated from or deserted the Service.
                 • DAS 79-002, “Report on the Review of Procedures Used to Determine
     Eligibility of Users of the Uniformed Services Medical Facilities,” October 11, 1978,
     and DAS 79-014, “Report on the Review of Eligibility of Recipients of Benefits
     Under the Civilian Health and Medical Program of the Uniformed Services,”
     November 17, 1978. The former Defense Audit Service (DAS)35 found that it was not
     possible to verify whether only eligible persons were given medical services at either
     Uniformed Service or CHAMPUS medical facilities. Based on these two reports, in
     1979, DoD estimated that up to $60 million annually ($20 million in direct medical
     facility costs and $40 million in CHAMPUS costs) were misspent on ineligible recipients.
                 • GAO/HRD-79-58, “Letter Report to the Secretary of Defense,”
     March 16, 1979. GAO found that improper CHAMPUS payments were continuing
     because DoD did not have an eligibility verification system and because controls over
     issuing and recovering identification cards were weak. Procedures were inadequate for
     recovering identification cards from divorced spouses and from dependents of active duty
     members who separated early from military service. According to GAO, one type of
     potentially erroneous CHAMPUS payment (for health care provided to dependents after
     the sponsors separated from active duty) cost the Government an estimated $780,000 over
     a 26 month period.
                 • GAO/HRD-83-1, “Verifying Eligibility for Military Health Care:
     Some Progress Has Been Made, But Reliability Problems Remain,” December 1,
     1982. GAO found that MTFs were performing only about 13 percent of required DEERS
     checks, thus potentially allowing ineligible individuals to receive medical care. GAO
     also found that DoD was not taking actions to resolve potential problems when
     discrepancies were identified in DEERS information. In addition, GAO found that
     sponsors were not reporting changes in dependent status, especially divorces.
                 • OIG, DoD INS-PED-015, “Review of Health Care Fraud Detection
     and Prevention within the Department of Defense,” February 24, 1994. The then
     Office of Assistant Inspector General for Inspections, OIG, DoD, compared DoD health
     care fraud detection and prevention techniques against private sector techniques. The

35
     DAS was incorporated into the OIG, DoD, as the Office of the Assistant Inspector General for Auditing, when the
     OIG, DoD, was established.




                                                                                                                       B-1
       Appendix B. Relevant Prior Reports and Findings



OIG, DoD, determined that DoD had not developed an anti-fraud strategy, and was not
providing health care fraud training or networking opportunities for its investigators.
            • In November 1996, the then Office of Assistant Inspector General for
Policy and Oversight, OIG, DoD, announced an “Evaluation of Health Care Beneficiary
Fraud Investigations.” During the research phase of the project, the OIG, DoD,
determined that a Memorandum of Understanding (MOU) between OASD(HA) and
DCIS, the OIG, DoD criminal investigative arm, was in conflict with the jurisdictional
responsibilities outlined in the “Revised Interim Guidance for Criminal Investigation of
Fraud Offenses Jurisdiction,” October 23, 1996. The revised interim guidance assigned
responsibility for beneficiary fraud investigations to the MCIOs. The MOU, however,
required the CHAMPUS Support Office (now DSO) to refer all beneficiary cases
involving $10,000 or more, or involving flagrant issues, to DCIS. On April 17, 1997,
DCIS effectively modified this MOU by notifying TMA and the DCIS field offices that
all beneficiary fraud cases, regardless of alleged dollar loss, should be referred to the
appropriate MCIO. On March 13, 1997, based on several factors, including DCIS advice
that it was modifying the MOU, the OIG, DoD, canceled the planned evaluation.




B-2
                                             Appendix C. Sites Visited During the Evaluation




Appendix C. Sites Visited During the Evaluation


MILITARY INSTALLATIONS

    Army
       •   Fort Belvoir, VA
       •   Fort Lewis, WA
       •   Fort Sam Houston, San Antonio, TX

    Navy and Marine Corps
       •   Naval Air Station, Patuxent River, MD
       •   U.S. Navy Personnel Support Activity, San Diego, CA
       •   U.S. Marine Corps Camp Pendleton, San Diego, CA

    Air Force
       •   Kelly AFB, San Antonio, TX
       •   Lackland AFB, San Antonio, TX
       •   Randolph AFB, San Antonio, TX
       •   Tinker AFB, Oklahoma City, OK
       •   Vance AFB, Enid, OK

    Joint Service
       •   Carswell Joint Reserve Training Base, Fort Worth, TX


MEDICAL TREATMENT FACILITIES

    Army
       •   Brooke Army Medical Center, Fort Sam Houston, TX
       •   Madigan Army Medical Center, Fort Lewis, WA




                                                                                       C-1
      Appendix C. Sites Visited During the Evaluation



      Navy
          •    Balboa Naval Hospital, San Diego, CA
          •    Naval Hospital, Camp Pendleton, CA
          •    Naval Medical Clinic, Patuxent River, MD

      Air Force
          •    Tinker Air Force Base Hospital, Oklahoma City, OK
          •    Vance AFB Clinic, Enid, OK
          •    Wilford Hall Medical Center, Lackland AFB, TX


TRICARE CONTRACTORS AND PAYMENT CENTERS
          •    Foundation Health, Surfside Beach, SC
          •    Foundation Health Services, Rancho Cordova, CA
          •    Humana, Louisville, KY
          •    Tri-West Healthcare Alliance, Phoenix, AZ
          •    Blue Cross/Blue Shield Payment Center, Myrtle Beach, SC
          •    TRICARE Payment Center, Myrtle Beach, SC




C-2
                                                                                        Appendix D. Criminal Investigations Conducted 1995-1997 (Ineligibility Cases)


Appendix D. Criminal Investigations
Conducted 1995 – 1997 (Ineligibility Cases)

 NO.           CASE NUMBER      SUBJ.    DATE         DATE           SOURCE OF         ESTIMATED                          REMEDIAL RESULTS
                                 NO.    OPENED       CLOSED *       ALLEGATION            LOSS        NONE    $$ ***     Confinement Article Discharge       Admin
                                                                                                       **                   ****       15                    Action
Closed Cases
     1 0013-96-CID142-32112       1     01/23/1996   08/13/1997   Anonymous Tip             $24,419                                                             X
       0013-96-CID142-32112       2     01/23/1996   08/13/1997
     2 0034-97-CID045-68713       1     02/08/1997   04/25/1997   Other Agency               $1,600
       0034-97-CID045-68713       2     02/08/1997   04/25/1997                                                                                                 X
     3 0043-96-CID062-31819       1     06/06/1996   07/22/1996   Command                   $11,219             11,219
     4 0043-96-CID637-20713       1     02/09/1996   04/17/1996   Other Agency                 $978                                                 X
     5 0058-97-CID032-57713       1     01/29/1997   03/31/1997   MTF                        $4,183    2
     6 0074-95-CID043-49109       1     02/25/1995   07/12/1995   Source Information         $3,293    1
     7 0077-96-CID022-30267       1     03/14/1996   06/21/1996   Source Information         $1,509    2
     8 0079-95-CID013-51326       1     02/09/1995   03/15/1995   MTF                        $1,024    1
     9 0094-96-CID446-44007       1     03/20/1996   11/08/1996   IG                         $2,988    1
       0094-96-CID446-44007       2     03/20/1996   11/08/1996
    10 0102-96-CID083-37308       1     04/04/1996   06/07/1996   Source Information         $4,468    1                                                        X
    11 0114-97-CID083-62364       1     03/20/1997   09/24/1997   Source Information          $672     1
       0114-97-CID083-62364       2     03/20/1997   09/24/1997
    12 0116-95-CID073-53021       1     05/02/1995   08/17/1995   Other Agency               $1,631    1
    13 0138-95-CID073-53822       1     06/07/1995   10/16/1995   From Other Agency         $29,953
       0138-95-CID073-53822       2     06/07/1996   10/16/1996                                        1
    14 0164-96-CID056-43616       1     03/07/1996   04/16/1996   Source Information         $2,998    2
    15 0171-96-CID014-43291       1     03/26/1996   06/10/1996   USACIDC                   $10,423    1
    16 01APR97-NFNF-0400-4UCR     1       04/01/97       4/2/97   Source Information             $0    2
    17 01FEB94-05LE-0080-4UMA     1       02/01/94       2/9/95   Command                       $61                                                 X
       01FEB94-05LE-0080-4UMA     2       02/01/94       2/9/95
       01FEB94-05LE-0080-4UMA     3       02/01/94       2/9/95
       01FEB94-05LE-0080-4UMA     4       02/01/94       2/9/95
    18 01FEB96-MWDT-0004-4UCR     1       02/01/96      2/15/96   TRICARE                        $0
    19 0207-96-CID056-43628       1     03/27/1996   04/16/1996   Source Information         $2,218              2,218       X
    20 0237-96-CID083-37336       1     08/09/1996   08/21/1996   Proactive                  $1,015                                                             X
    21 0254-96-CID013-35957       1     05/10/1996   06/11/1996   Source Information          $568     1          568
    22 0259-95-CID145-20829       1     12/04/1995   12/15/1995   OCHAMPUS                  $38,136    1




                                                                                                                                                                 D-1
                                                                                 Appendix D. Criminal Investigations Conducted 1995-1997 (Ineligibility Cases)

  23 0260-96-CID053-35433     1   07/25/1996   02/14/1997   Other Agency              $1,786    2
     0260-96-CID053-35433     2   07/25/1997   02/14/1997
  24 0260-97-CID073           1     10/15/97     10/16/97   CHAMPUS                  $34,037    1
     0260-97-CID073           2     10/15/97     10/16/97
  25 0284-96-CID083-37344     1   09/24/1996   11/06/1996   USACIDC                     $591    1
  26 02APR96-NFHV-0030-4UNA   1     04/02/96      9/25/96   MTF                       $2,500    2
  27 02JAN96-NFNF-0002-4UNI   1     01/02/96      5/20/96   Proactive                     $0    2
  28 0323-95-CID054-22674     1   06/20/1995    7/21/1995   MTF                         $847    1
  29 0325-97-CID043-64787     1   08/18/1997   09/05/1997   Source Information          $569    1          569
     0325-97-CID043-64787     2   08/18/1997   09/05/1997
  30 0336-97-CID093-61642     1   07/22/1997   08/26/1997   Source Information                  2
  31 0362-95-CID137-33404     1   11/16/1995   10/21/1996   Anonymous Tip               $192               300                               X
     0362-95-CID137-33404     2   11/16/1995   10/21/1997                                                                                                X
  32 0366-97-CID056-69917     1   05/01/1997   05/09/1997   Other Agency                $759                                                 X
     0366-97-CID056-69917     2   05/01/1997   05/09/1997                                                                                    X
     0366-97-CID056-69917     3   05/01/1997                                                               759
  33 0377-95-CID024-20101     1   07/17/1995   09/19/1995   USACIDC                             2
  34 0424-95-CID054           1    8/23/1995   09/07/1995   Source Information       $18,900    2
  35 0438-96-CID044-42421     1   10/23/1996   03/03/1997   Other Agency              $9,550                                       X
     0438-96-CID044-42421     2   10/23/1996   03/03/1997
  36 0441-94-CID043-31398     1   01/19/1995   01/19/1995   Source Information          $891                                                             X
  37 04AUG97-CAPI-0103-4UNA   1     08/04/97     12/19/97   Command                   $1,382              1,382
  38 0500-97-CID044-67869     1   12/02/1997   12/31/1997   Command                   $9,614    2
  39 0550-96-CID013           1      10/1/96     10/10/96   Proactive                           2
  40 0571-95-CID034-21527     1   07/07/1995   12/30/1995   Other Agency                        2
  41 0602-96-CID016-44855     1   07/31/1996   10/01/1996   Source Information          $808               808
  42 08DEC95-MPJX-0042-4UNA   1     12/08/95      3/24/97   Source Information            $0    2
  43 08MAY97-CACP-0067-4UMA   1     05/08/97      5/20/97   MTF                           $0    2
  44 12OCT93-11SD-1427-4UNA   1     10/12/93      2/24/95   Command                  $17,007                          X                      X
     12OCT93-11SD-1427-4UNA   2     10/12/93      2/24/95                                                                                                X
  45 13JUL95-NFHV-0043-4UNA   1     07/13/95      8/29/95   MTF                         $385    1
  46 13MAR96-NFCE-0060-4UNA   1     03/13/96      5/23/96   Command                       $0    2
     13MAR96-NFCE-0060-4UNA   2     03/13/96      5/23/96
  47 13SEP93-20WA-4009-4UNA   1     09/13/93      4/12/95   Source Information        $2,417              2,417
     13SEP93-20WA-4009-4UNA   2     09/13/93      4/12/95
  48 14MAR95-GCCC-0071-4UNA   1     03/14/95      3/20/95   Other Agency              $6,292    2
  49 16OCT95-GCNR-0009-4UNA   1     10/16/95      6/19/97   Referred by DCIS         $13,428    2
  50 23MAR95-CSKB-0139-4UNA   1     03/23/95      7/28/95   Other Agency                  $0    2
  51 25JAN95-GCPC-0017-4UNA   1     01/25/95       2/1/96   Source Information        $3,836    1
  52 28JUL94-05NF-1280-4UNA   1     07/28/94      1/10/95   Source Information            $0    2
  53 28MAR95-NFNF-0820-4UNI   1     03/28/95      1/16/97   Anonymous Tip             $5,483    1




D-2
                                                                                    Appendix D. Criminal Investigations Conducted 1995-1997 (Ineligibility Cases)

    54 30MAR95-NFNF-0846-4UNI     1       03/30/95    6/20/96   Referred by DCIS             $0    2
    55 9511209C                   1       06/12/95       8/97   TRICARE                $362,941    1
       9511209C                   2       06/12/95       8/97
       9511209C                   3       06/12/95       8/97
    56 9511231Y                   1       06/19/95       6/95   TRICARE                 $11,206    2
    57 95211D4-S762954            1       02/02/95     7/7/95   Medical Personnel        $2,908              2,908                                          X
    58 95219D61-S765366           1       03/15/95     5/3/95   Medical Personnel            $0    2
    59 95323D58-S715691           1       10/02/95   11/14/95   None                         $0    2
    60 9610089C                   1       10/27/95      10/95   TRICARE                  $6,711    2
    61 9610159Z                   1       11/30/95       9/96   TRICARE                 $11,624    1
       9610159Z                   2       11/30/95       9/96
    62 96206D4-S796832            1       08/22/96    8/15/97   Medical Personnel        $5,103              5,103
    63 96206D4-S796833            1       08/22/96    8/15/97   Medical Personnel        $6,272                                                             X
    64 96211D4-S801457            1       11/13/96    3/26/97   Medical Personnel       $45,646                          X            X                     X
       96211D4-S801457            2       11/13/96    3/26/97
    65 96216D4-S786881            1       02/20/96     4/2/96 SJA                            $0                                                 X
    66 96216D4-S786948            1       02/21/96     4/2/96 SJA                        $1,682    2
    67 96301D4-S797065            1       08/27/96    1/10/97 Medical Personnel         $11,112             11,112
    68 96303D61-S786700           1       02/15/96    8/26/96 Medical Personnel          $1,603                                                             X
    69 96303D61-S795950           1       08/05/96    1/10/97 Open Source-               $4,846    1
                                                              Civilian
    70 96320D95-S790713           1       04/20/96    7/20/96 None Entered                   $0                                                             X
    71 9710017S                   1       10/09/96       3/97 TRICARE                    $7,932    1
    72 9710051A                   1       10/23/96       6/97 TRICARE                        $0    2
       9710051A                   2       10/23/96       6/97
    73 9710231I                   1       01/13/97      10/97 TRICARE                   $11,429    2
    74 97211D4-S807219            1       03/04/97     5/8/97 Open Source-              $12,193                                                             X
                                                              Military
         97211D4-S807219          2       03/04/97     5/8/97
    74 Subtotal - Closed Cases    98                                                   $777,838    49     $39,363         3           2          7         13
       Average Per Case           1.3                                                   $10,511              $532
  91% Percent of Cases                                                                            66%                   4%           3%         9%        18%
Open Cases
     1   0362-97-CID022-59100     1     10/03/1997              MTF                        $474    1          474
     2   06OCT97-FEYK-0331-4UNI   1       10/06/97              MTF                     $65,000
     3   08MAY96-MPJX-0109-4UNA   1       05/08/96              TRICARE                     $91
     4   9610390G                 1       02/20/96              Other Agency           $500,000
     5   9610517N                 1       04/08/96              TRICARE                  $4,043
     6   9710253E                 1       01/22/97              TRICARE                  $9,408    1                                                        X
     7   0239-97-CID967-53866     1     09/10/1997              Command                  $1,093              1,093                    X
         0239-97-CID967-53866     2     09/10/1997                                                 1




                                                                                                                                                             D-3
                                                                               Appendix D. Criminal Investigations Conducted 1995-1997 (Ineligibility Cases)

   7 Subtotal – Open Cases        8                                               $580,109     3       $1,567        0           1          0          1
     Average Per Case            1.1                                               $82,873               $224
  9% Percent of Cases                                                                         43%                  0%           14%        0%        14%
   81 Total Cases               106                                              $1,357,947   52     $40,930        3            3          7         14
     Average Per Case           1.3                                                 $16,765             $505
100% Percent of Cases                                                                         64%                  4%           4%         9%        17%

   * ROI date where the case closure date was not provided.
  ** 1 = Prosecution Declined; 2 = Prosecution Was Not Declined, But Case Was Closed Without Criminal, Civil, or Administrative Remedy
 *** Total monetary recoveries, including fines, penalties, restitutions and recoveries.
**** Includes suspended sentence time and probation time.




D-4
Appendix E. Management Comments
            Under Secretary of Defense (Personnel and Readiness)



Appendix E. Management Comments




E-2
Appendix E. Management Comments
            Under Secretary of Defense (Personnel and Readiness)




                                                            E-3
Appendix E. Management Comments
            Under Secretary of Defense (Personnel and Readiness)




E-4
Appendix E. Management Comments
            Under Secretary of Defense (Personnel and Readiness)




                                                            E-5
Appendix E. Management Comments
            Under Secretary of Defense (Personnel and Readiness)




E-6
Appendix E. Management Comments
            Naval Criminal Investigative Service




                                             E-7
                                                             Appendix F. Report Distribution




Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller/Chief Financial Officer)
Assistant Secretary of Defense (Health Affairs)*
Assistant Secretary of Defense (Legislative Affairs)
Director, Defense Manpower Data Center*


Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)*
Auditor General, Department of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)*


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)*


Other Defense Organizations
Director, Defense Criminal Investigative Service*
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency
Director, Defense Security Assistance Agency
Director, National Security Agency
Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency

   * Recipient of draft report


Non-Defense Federal Organizations and Individuals
Office of Management and Budget


                                                                                        F-1
Appendix F. Report Distribution



Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information Technology,
   Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
   Committee on Government Reform




F-2
